APPENDIX-A: Summary Order of 2nd Circuit
Court of Appeals Stating NO
TREATY JURISDICTION [4/16/2021]

\

13
*

;

Case 20-2408, Document 71-1, 04/16/2021, 3079241, Pagel of 5

20-2408

Anand v. Comm’r

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 16th day of April, two thousand twenty-one.
PRESENT:
DEBRA ANN LIVINGSTON,
ChiefJudge,
RICHARD C. WESLEY,
SUSAN L. CARNEY,
Circuit Judges.

Davendra Anand,
Petitioner-Appellant,
20-2408

v.
Commissioner of Internal Revenue,
Respondent-Appellee.

FOR PETITIONER-APPELLANT:

Davendra Anand, pro se, Fort Trumbull, CT.

FOR RESPONDENT-APPELLEE:

Francesca Ugolini, Allison K. Turbiville,
Attorneys, Tax Division, for Richard E.
Zuckerman, Principal Deputy Assistant
Attorney General, Department of Justice,
Washington, DC.

Appeal from a decision of the United States Tax Court (Goeke, J.).
14

Case 20-2408, Document 71-1, 04/16/2021, 3079241, Page2 of 5

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the decision of the Tax Court is AFFIRMED.
Appellant Davendra Anand, proceeding pro se, filed a petition in the Tax Court, seeking an
abatement of interest; refunds of taxes and Report of Foreign Bank and Financial Accounts
(“FBAR”) penalties paid for failing to report rental income from a commercial property in India;
and amendment of a treaty between the United States and India (the Double Taxation Abatement
Agreement (“DTAA”)). The Tax Court dismissed the portion of Anand’s petition related to the
DTAA and the FBAR penalties, reasoning that it lacked jurisdiction over those issues. It granted
partial summary judgment to the Commissioner of the Internal Revenue Service (“IRS”) with
respect to Anand’s challenge to his underlying tax liability because Anand’s challenge was
precluded by the decision in a prior 2016 Tax Court proceeding. It also granted partial summary
judgment to the Commissioner with respect to the denial of an interest abatement, reasoning that
Anand was entitled to an abatement only for a certain period where the accrued interest was
attributable to an unreasonable delay by the IRS. We assume the parties’ familiarity with the
underlying facts, the procedural history of the case, and the issues on appeal.
We review the Tax Court’s grant of summary judgment de novo. Sunik v. Comm’r, 321
F.3d 335, 337 (2d Cir. 2003); Eisenberg v. Comm’r, 155 F.3d 50, 53 (2d Cir. 1998); 26 U.S.C.
§ 7482(a)(1) (providing that tax court decisions reviewed in same manner as district court decisions
in civil cases tried without a jury). “Summary judgment is properly granted where no genuine
issue of material fact exists and the movant is entitled to judgment as a matter of law.” Eisenberg,
155 F.3d at 53.

15

Case 20-2408, Document 71-1, 04/16/2021, 3079241, Page3 of 5

In general, the IRS may abate interest when the interest is “attributable in whole or in part
to any unreasonable error or delay by an officer or employee of the Internal Revenue Service (acting.
in his official capacity) in performing a ministerial or managerial act[.]”
§ 6404(e)(1)(A).

26 U.S.C.

However, any delay that is attributable to the taxpayer is not eligible for

abatement. Id. § 6404(e)(1). Further, delays must occur in the period between when the IRS first
contacts a taxpayer about a deficiency and when interest is assessed. See Banat v. Comm V, T.C.
Mem. 2000-141, at * 2 (2000), aff’d, 5 Fed. App’x 36 (2d Cir. 2001). The Tax Court reviews the
Commissioner’s decision to deny an abatement of interest for an abuse of discretion. 26 U.S.C.
§ 6404(h)(1).
Anand failed to show that the Commissioner abused his discretion by denying an abatement
of interest. The Tax Court determined that the only period that Anand could be eligible for an
interest abatement was from September 26, 2013, to February 11, 2014, when the IRS stopped
working on Anand’s case in order to work on his brother’s audit. Anand did not offer any evidence
that other delays were unreasonable. Anand argued in the Tax Court that delays had been caused
by changes in the personnel handling his case. But the first change in personnel, from an agent
working as a part of the Offshore Voluntary Disclosure Initiative (“OVDI”) to IRS Revenue Agent'
Karen Vazquez, was caused by Anand when he left the OVDI program. Delays attributable to the
taxpayer are not eligible for interest abatements. See id. § 6404(e)(1). The other changes in_
personnel involved a change from Agent Vazquez to Revenue Agent Jennifer Jones—the resultant
delay for which the Tax Court had already abated Anand’s interest-—and the assignment of Appeals
Officer Karen Graham. However, Officer Graham was assigned in December 2015, after the IRS
assessed Anand’s interest in July 2015 and Anand had filed a petition in the Tax Court. Because
16

Case 20-2408, Document 71-1, 04/16/2021, 3079241, Page4of5

this was after the interest was assessed, any delay attributable to Officer Graham’s assignment is
not eligible for abatement. See Banat, T.C. Mem. 2000-41, at * 2.
Anand contends that the IRS agents working on his tax case were “confused and in disarray”
about the effect of the DTAA and the property’s location in India. Appellant’s Br. 7. To the
extent that Anand argues that the delay in his case was caused by the IRS agents’ need to obtain
legal advice on these issues, he cannot obtain an abatement for time spent obtaining legal advice.
Under Treasury Department regulations, such an act is not considered ministerial or managerial.
See 26 C.F.R. § 301.6404-2(c) (stating in Example 12 that any delay or error caused by the need to
interpret “complex provisions of federal tax law” is not a ministerial or managerial act). Anand
also argues that Appeals Officer Graham intentionally misled him and told him he would not accrue
interest in order to convince him to settle. But this argument is clearly contradicted by the text of
the 2016 Tax Court decision, which stated that the parties stipulated that Anand would be subject
to interest on his unpaid deficiencies.
The Tax Court also properly granted summary judgment to the Commissioner with respect
to the underlying tax liability. The doctrine of res judicata (claim preclusion) prevents parties
from relitigating issues that were, or could have been, decided on the merits in a previous action.
Brown Media Corp. v. K&L Gates, LLP, 854 F.3d 150,157 (2dCir. 2017). “To determine whether
the doctrine of res judicata bars a subsequent action, [this Court] considers] whether 1) the prior
decision was a final judgment on the merits, 2) the litigants [or their privies] were the same parties,
3) the prior court was of competent jurisdiction, and 4) the causes of action were the same.” Id.
(internal quotation marks and citation omitted). The Supreme Court has held that Tax Court
decisions based on an agreement of the parties “are res judicata of the tax claims for the years”
at
17

Case 20-2408, Document 71-1, 04/16/2021, 3079241, Page5 of 5

issue in the Tax Court decision. United States v. Int’l Bldg. Co., 345 U.S. 502, 505-06 (1953).
Anand entered into a settlement agreement with the Commissioner regarding his tax liability for
tax years 2004 to 2011 and the Tax Court entered a decision based on their stipulation. Therefore,
the Tax Court decision concerning Anand’s tax liabilities for tax years 2004 to 2011 has preclusive
effect. Anand could not relitigate those tax liabilities in his second Tax Court proceeding, much
less in this appeal.
Finally, we cannot address any of Anand’s claims concerning amendment of the DTAA or
his FBAR penalties because we lack jurisdiction “to grant relief that is beyond the powers of the
Tax Court itself.” Maier v. Comm’r, 360 F.3d 361, 363 (2d Cir. 2004) (internal quotation marks
and citation omitted). “[T]he Tax Court is a court of limited jurisdiction that possesses only those
powers expressly conferred upon it by Congress; it may exercise jurisdiction only pursuant to
specific legislative enactments.” Id.

The Tax Court lacked jurisdiction to alter the DTAA.

Anand points to no statutory provision permitting the Tax Court, or this Court, to alter treaties.
Further, the Tax Court does not have jurisdiction over FBAR penalties because they are not
considered tax deficiencies. See Williams v. Comm ’r, 131 T.C. 54, 56-59 (2008). Therefore, we
lack jurisdiction over these issues.
We have reviewed the remainder of Anand’s arguments and find them to be without merit.
For the foregoing reasons, the decision of the Tax Court is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

18

Case 20-2408, Document 71-2, 04/16/2021, 3079241, Pagel of 1

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
DEBRA ANN LIVINGSTON

CATHERINE O’HAGAN WOLFE

CHIEF JUDGE

CLERK OF COURT

Date: April 16, 2021
Docket #: 20-2408ag
Short Title: Anand v. Commissioner of Internal Reven

Agency#: 18975-17
Agency: Internal Revenue Service

BILL OF COSTS INSTRUCTIONS

The requirements for filing a bill of costs are set forth in FRAP 39. A form for filing a bill of
costs is on the Court's website.
The bill of costs must:
* be filed within 14 days after the entry ofjudgment;
* be verified;
* be served on all adversaries;
* not include charges for postage, delivery, service, overtime and the filers edits;
* identify the number of copies which comprise the printer's unit;
* include the printer's bills, which must state the minimum charge per printer's unit for a page, a
cover, foot lines by the line, and an index and table of cases by the page;
* state only the number of necessary copies inserted in enclosed form;
* state actual costs at rates not higher than those generally charged for printing services in New
York, New York; excessive charges are subject to reduction;
* be filed via CM/ECF or if counsel is exempted with the original and two copies.

19

Case 20-2408, Document 71-3, 04/16/2021, 3079241, Page! of 1

United States Court of Appeals for the Second Circuit
, Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
DEBRA ANN LIVINGSTON

CATHERINE O'HAGAN WOLFE

CHIEF JUDGE

CLERK OF COURT '

Date: April 16, 2021
Docket #: 20-2408ag
Short Title: Anand v. Commissioner of Internal Reven

Agency #: 18975-17
Agency: Internal Revenue Service
* ■ r

Verified itemized bill of costs

Counsel for

respectfully submits, pursuant to FRAP 39 (c) the within bill of costs and requests the Clerk to
prepare an itemized statement of costs taxed against the

and in favor of

for insertion in the mandate.
Docketing Fee
Costs of printing appendix (necessary copies _

)

' Costs of printing brief (necessary copie s .

.)

Costs of printing reply brief (necessary copies

)

(VERIFICATION HERE)

Signature
..

20

*

.

APPENDIX-B: Decision of the Tax Court
[7/22/2020]

!

:

21

UNITED STATES TAX COURT
WASHINGTON, DC 20217

DRC

DAVENDRA ANAND,

)
)

Petitioner(s),

)
)

v.

) Docket No. 18975-17.
)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)

DECISION
On October 3,2019, the Court rendered a Bench Opinion in this case. On
January 13, 2020, respondent filed a Computation for Entry of Decision and
petitioner filed an Objection to Computation for Entry of Decision. Upon due
consideration and for cause, it is
ORDERED and DECIDED that with respect to the taxable years 2004,
2008, and 2010, petitioner is not entitled to an abatement of interest under I.R.C. §
6404.
That with respect to the taxable years 2005, 2006, 2007, 2009, and 2011,
petitioner is entitled to an abatement of interest under I.R.C. § 6404 for the period
September 26, 2013 through February 11, 2014.
(Signed) Joseph Robert Goeke
Judge

ENTERED:

JUL 22 2020

22

SERVED Jul 22 2020

APPENDEX-C: Tax Court Order Stating NO
JURISDICTION[3/6/2018]

23

UNITED STATES TAX COURT
WASHINGTON, DC 20217

PA

DAVENDRA ANAND,

)
)

Petitioner,

)
)

v.

) Docket No. 18975-17.
)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent.

)

ORDER
On October 19, 2017, respondent filed a Motion To Dismiss for Lack of
Jurisdiction. In his motion to dismiss respondent moves to dismiss for lack of
jurisdiction, so much of this case (1) relating to refund of FBAR penalties against
petitioner for taxable years 2004 through 2011, and (2) modification by this Court
of the U.S.-India Double Taxation Avoidance Agreement (DTAA). On October
25, 2017, petitioner filed an Objection to respondent’s motion to dismiss. On
December 1, 2017, petitioner filed a Statement Additional Statement/Commentary
- Version 2.
Background
The following facts are established by the record and/or are not disputed by
the parties.
On September 7, 2017, the petition in this case was filed. Petitioner seeks
(1) review of respondent’s failure to abate interest for taxable years 2004 through
2011(2) refund of income taxes assessed against petitioner for taxable years 2004
‘In his motion to dismiss respondent acknowledges that petitioner filed a request for abatement
of interest for taxable years 2004 through 2011 with the Internal Revenue Service on November
18, 2016, and that this Court has jurisdiction to review that interest abatement claim under I.R.C.
section 6404(h) since the petition in this case was filed more than 180 days after petitioner’s
filing of his November 18, 2016, abatement request with the Internal Revenue Service.
24

SERVED Mar 07 2018

-2-

through 2011, because, according to petitioner, income from property in India
should not be subject to U.S. income tax;2 (3) refund of FBAR penalties assessed
against him for taxable years 2004 through 2011; and (4) modification by the
Court of the U.S.-India DTAA to make that tax treaty’s language less ambiguous.3
On October 19,2017, respondent filed his Motion To Dismiss for Lack of
Jurisdiction moving to dismiss for lack of jurisdiction so much of this case (1)
relating to refund of FBAR penalties for 2004 through 2011, and (2) modification
by this Court of the U.S.-India tax treaty’s language. On October 25, 2017,
petitioner filed his Objection to respondent’s motion to dismiss. On December 1,
2017, petitioner filed his Statement Additional Statement/Commentary - Version 2.
Discussion
This Court is a court of limited jurisdiction and may exercise jurisdiction
only to the extent expressly authorized by Congress. I.R.C. sec. 7442; Naftel v.
Commissioner. 85 T.C. 527, 529 (1985); Breman v. Commissioner. 66 T.C. 61, 66
(1976). Where this Court's jurisdiction in a case is duly challenged, the jurisdiction
must be affirmatively shown. Romann v. Commissioner. 111 273, 280 (1998);
Wheeler's Peachtree Pharmacy, Inc, v. Commissioner, 35 T.C. 177, 180 (1980).
This Court does not have jurisdiction here to address petitioner’s liability for
FBAR penalties. Williams v. Commissioner, 131 T.C. 54 (2008) (noting that “The
FBAR penalty * * * falls outside of our jurisdiction to review deficiency
determinations”).
This Court also does not have jurisdiction to alter the language of a tax
treaty between the United States and another foreign country. The power to enter
Respondent notes that petitioner and his wife filed a Tax Court deficiency case for 2004 through
2011 at docket No. 23582-15, and a stipulated decision was entered by the Court in that case on
September 16, 2016. Respondent indicates that while refund of those 2004 through 2011 income
tax deficiencies may be in the Court’s jurisdiction, respondent will affirmatively plead the
doctrine of res judicata at an appropriate time and may file a motion for summary judgment.
3In an attachment to his petition petitioner states, inter alia:
Point 5: I, Davendra Anand, request that the USA-India DTAA must be
modified/corrected to remove all confusion that the use of the word “may”
throughout the DTAA Treaty document has caused for taxpayers and tax filing
experts in both countries.
25

-3-

into a treaty, or to amend a treaty, is vested solely in the President and Congress.
Article II, section 2, clause 2, of the Constitution provides that the President shall
have power, by and with the advice and consent of the Senate, to make treaties,
provided two-thirds of the Senators present concur.
In his Objection petitioner essentially does not dispute the jurisdictional
allegations in respondent’s motion to dismiss. Nonetheless, petitioner asserts, inter
alia:
A. Objection to opening paragraph of the Motion (regarding the
FBAR Penalties and USA-India Double Taxation Avoidance
Agreement or "DTAA"):
PRIMARY REASON OF OBJECTION: Petitioner believes the
two issues pertaining to DTAA and FBAR that are inter-related and
tightly coupled, should be dealt with and addressed together at the
same venue where the tax consequences are handled - i.e. The U.S.
Tax Court, and not any other Court.
Contrary to petitioner's argument, however, as discussed above, I.R.C. section
7442 does not provide the Court with unlimited jurisdiction over all tax-connected
issues and matters. This Court is a court of limited jurisdiction and may only
exercise jurisdiction to the extent authorized by Congress. Naftel v.
Commissioner, supra: Breman v. Commissioner, supra.
Petitioner has failed to affirmatively establish and demonstrate that this
Court has jurisdiction as to so much of this case relating to the FBAR penalties for
2004 through 2011, and modification by this Court of language in the U.S-India
tax treaty. Romann v. Commissioner, supra: Wheeler's Peachtree Pharmacy.
Inc, v. Commissioner, supra. Accordingly, we will grant respondent's motion and
dismiss so much of this case, insofar as related to those matters, for lack of
jurisdiction.
Upon due consideration, it is
ORDERED that respondent’s Motion To Dismiss for Lack of Jurisdiction,
filed October 19, 2017, is granted in that so much of this case relating to the FBAR

26

-4-

penalties for taxable years 2004 through 2011, and modification by this Court of
the U.S.-India DTAA, is dismissed for lack of jurisdiction.

(Signed) L. Paige Marvel
Judge

Dated: Washington, D.C.
March 6, 2018

27

APPENDIX-D: USA-India Double Taxation
Avoidance Agreement/Treaty

28

TAX CONVENTION WITH THE REPUBLIC OF INDIA
GENERAL EFFECTIVE DATE UNDER ARTICLE 30:1 JANUARY 1991

TABLE OF ARTICLES
Article 1Article 2Article 3—
Article 4Article 5—
Article 6—
Article 7—
Article 8—
Article 9—
Article 10
Article 11
Article 12Article 13
Article 14Article 15Article 16Article 17
Article 18Article 19Article 20Article 21Article TlArticle 23.................
Article 24------------Article 25................
Article 26------------Article 27-................
Article 28------------Article 29------------Article 30------------Article 31.................
Protocol...................
Notes of Exchange L
Notes of Exchange 2

—-General Scope
—Taxes Covered
-General Definitions
—Residence
-Permanent Establishment
■Income from Immovable Property (Real Property)
-Business Profits
-Shipping and Air Transport
-Associated Enterprises
—Dividends
—Interest
-Royalties and Fees for Included Services
—Gains
-Permanent Establishment Tax
—Independent Personal Services
-Dependent Personal Services
—Directors' Fees
-Income Earned by Entertainers and Athletes
-Remuneration and Pensions in Respect
of Government Service
■Private Pensions, Annuities, Alimony and Child Support
-Payments Received by Students and Apprentices
-Payments Received by Professors,
Teachers and Research Scholars
—Other Income
-Limitation on Benefits
----Relief from Double Taxation).
-Non-discrimination
—Mutual Agreement Procedure
■Exchange of Information and Administrative Assistance
-Diplomatic Agents and Consular Officers
—Entry Into Force
—Termination
-—of 12 September, 1989
-of 12 September, 1989
-of 12 September, 1989
29

Memorandum of Understanding---- of 15 May, 1989
Letter of Submittal
-of 24 October, 1989
Letter of Transmittal-of 31 October, 1989
The “Saving Clause”
■Paragraph 3 of Article 1

MESSAGE
FROM
THE PRESIDENT OF THE UNITED STATES
TRANSMITTING
THE CONVENTION BETWEEN THE GOVERNMENT OF THE UNITED STATES
OF AMERICA AND THE GOVERNMENT OF THE REPUBLIC OF INDIA FOR THE
AVOIDANCE OF DOUBLE TAXATION AND THE PREVENTION OF FISCAL EVASION
WITH RESPECT TO TAXES ON INCOME, TOGETHER WITH A RELATED PROTOCOL,
SIGNED AT NEW DELHI ON SEPTEMBER 12,1989
LETTER OF SUBMITTAL
DEPARTMENT OF STATE,
Washington, October 24, 1989.
The PRESIDENT,
The White House.
DEAR Mr. PRESIDENT: I have the honor to submit to you, with a view to its transmission to the
Senate for advice and consent to ratification, the Convention between the Government of the United
States of America and the Government of the Republic of India for the Avoidance of Double Taxation
and the Prevention of Fiscal Evasion with Respect to Taxes on Income, together with a related
Protocol, signed at New Delhi on September 12,1989.
The Convention would be die first tax treaty between the United States and India. In general, it
follows the pattern of the United States model tax convention but differs in a number of respects to
reflect India's status as a developing country.
The Convention provides maximum rates of tax at source on payments of dividends, interest and
royalties which, in each case, are higher than die rates specified in the United States Model. Dividends
from a subsidiary to a parent corporation are taxable at a maximum rate of 15 percent; other dividends
may be taxable at source at a 25 percent rate. Interest is, in general, taxable at source at a maximum
rate of 15 percent, although interest received by a financial institution is taxable at a maximum rate of 10

30

percent, and interest received by either of the two Governments, by certain governmental financial
institutions, and by residents of a Contracting State on certain Government approved loans, is exempt
from tax at source.
The royalty provisions contain several significant departures from standard United States tax treaty
policy. In general, industrial and copyright royalties are taxable at source at a maximum rate of 20
percent for the first five years, dropping to 15 percent thereafter. Where the payor of the royalty is one
of the Governments, a political subdivision or a public sector corporation, tax will be imposed from the
date of entry into force of the treaty at a maximum rate of 15 percent. Payments for the use of, or the
right to use, industrial, commercial or scientific equipment are treated as royalties, rather than as
business profits, and are subject to a maximum rate of tax at source of 10 percent. The most significant
departure from past policy in the royalty article is the fact that certain service fees, referred to in the
Convention as "fees for included services", are treated in the same manner as royalties, and not, as
would normally be the case, as business profits. Included services are defined as technical consultancy
services which either: (i) are ancillary and subsidiary to the licensing of an intangible or the rental of
tangible personal property, both of which give rise to royalty payments, or, (ii) if not ancillary or
subsidiary, make available to the payor of the service fee some technical knowledge, experience, skill,
etc., or transfer to that person a technical plan or design. A detailed memorandum of understanding was
developed by the negotiators to provide guidance as to the intended scope of the concept of “included
services” and the effect of the memorandum is agreed to in an exchange of notes. These are included for
information only. Fees for all other services are treated either as business profits or as independent
personal services income. Although not reflected in the convention, under Indian law, certain service
fees related to defense contracts are exempt from Indian tax..
The Convention preserves for the United States the right to impose the branch profits tax. It
preserves for both Contracting States their statutory taxing rights with respect to capital gains.
The Convention also contains rules for the taxation of business profits which, consistent with other
United States tax treaties with developing countries, provide a broader range of circumstances under
which one partner may tax the business profits of a resident of the other. The Convention defines
permanent establishment to include a construction site or a drilling rig where the site or activity continues
for a period of 120 days in a year. This compares with a twelve month threshold under the United
States Model, and six months under the typical developing country tax treaty. In addition, the
Convention contains reciprocal exemption at source for shipping and aircraft operating income, including
income from the incidental leasing of ships, aircraft or containers (i.e., where the lessor is an operator of
ships and aircraft). The Convention differs from the United States Model in that income from the non­
incidental leasing of ships, aircraft or containers (i.e., where the lessor is not an operator of ships or
aircraft) is not covered by the article. Income from such non-incidental leasing is treated as a royalty,
taxable at source at a maximum rate of 10 percent.
The treatment under the Convention of various classes of personal service income is similar to that
under the United States tax treaties with developing countries.

31

The Convention contains provisions designed to prevent third-country residents from treaty
shopping, i.e., from taking unwarranted advantage of the Convention by routing income from one
Contracting State through an entity created in the other. These provisions consistent with recent tax
legislation, identify treaty shopping in terms both of third-country ownership of an entity, and of the
substantial use of the entity's income to meet liabilities to third-country persons. Notwithstanding the
presence of these factors, however, treaty benefits will be allowed if the income is incidental to or
earned in connection with the active conduct of a trade or business in the State of residence, if the
shares of the company earning the income are traded on a recognized stock exchange, or if the
competent authority of the source State so determines.
As with all United States tax treaties, the Convention prohibits tax discrimination, creates a dispute
resolution mechanism and provides for the exchange of otherwise confidential tax information between
the tax authorities of the parties. The Convention authorizes access by the General Accounting Office
and the tax writing committees of Congress to certain information exchanged under the Convention
which is relevant to the functions of these bodies in overseeing the administration of United States laws.
In an exchange of notes, the United States and India agree that, although the Convention does not
contain a tax sparing credit, if United States policy changes in this regard, the Convention will be
promptly amended to incorporate a tax sparing provision. These notes are also included for Information
only.
A technical memorandum explaining in detail the provisions of the Convention and the related
Protocol is being prepared by the Department of the Treasury and will be submitted separately to the
Senate Committee on Foreign Relations.
The Department of the Treasury, with the cooperation of the Department of State, was primarily
responsible for the negotiation of the Convention and related Protocol.
Respectfully submitted,
JAMES A. BAKER III.
Enclosures: As stated.

LETTER OF TRANSMITTAL
THE WHITE HOUSE, October 31, 1989.
To the Senate of the United States:
I transmit herewith for Senate advice and consent to ratification the Convention between the
Government of the United States of America and the Government of the Republic of India for the
Avoidance of Double Taxation and the Prevention of Fiscal Evasion with Respect to Taxes on Income,
32

together with a related Protocol, signed at New Delhi on September 12, 1989.1 also transmit the report
of the Department of State on the convention.
The convention would be the first tax treaty between the United States and India. It includes special
provisions that take into account India's status as a developing nation and that reflect changes in U.S.
tax treaty policy resulting from the Tax Reform Act of 1986.
Of particular importance are the provisions limiting the withholding tax rates on various categories of
investment income, as well as those designed to prevent third-country residents from taking unwarranted
advantage of the convention by routing income from one Contracting State through an entity created in
the other. The convention also provides for the exchange of information by the competent authorities of
the Contracting States.
I recommend the Senate give early and favorable consideration to the convention, together with a
related protocol, and give its advice and consent to ratification.
GEORGE BUSH.

CONVENTION BETWEEN THE GOVERNMENT OF THE UNITED STATES OF
AMERICA AND THE GOVERNMENT OF THE REPUBLIC OF INDIA FOR THE
AVOIDANCE OF DOUBLE TAXATION AND THE PREVENTION OF FISCAL EVASION
WITH RESPECT TO TAXES ON INCOME
The Government of the United States of America and the Government of the Republic of India,
desiring to conclude a Convention for the avoidance of double taxation and the prevention of fiscal
evasion with respect to taxes on income, have agreed as follows:

ARTICLE 1
General Scope
1. This Convention shall apply to persons who are residents of one or both of the Contracting
States, except as otherwise provided in the Convention.
2. The Convention shall not restrict in any manner any exclusion, exemption, deduction, credit, or
other allowance now or here after accorded:
(a) by the laws of either Contracting State; or
(b) by any other agreement between the Contracting States; or
3. Notwithstanding any provision of the Convention except paragraph 4, a Contracting State may
tax its residents (as determined under Article 4 (Residence)), and by reason of citizenship may tax its
citizens, as if the Convention had not come into effect. For this purpose, the term “citizen” shall include a
33

former citizen whose loss of citizenship had as one of its principal purposes the avoidance of tax, but
only for a period of 10 years following such loss.
4. The provisions of paragraph 3 shall not affect
(a) the benefits conferred by a Contracting State under paragraph 2 of Article 9
(Associated Enterprises), under paragraphs 2 and 6 of Article 20 (Private Pensions, Annuities,
Alimony, and Child Support), and under Articles 25 (Relief from Double Taxation), 26 (Non­
discrimination), and 27 (Mutual Agreement Procedure); and
(b) the benefits conferred by a Contracting State under Articles 19 (Remuneration and
Pensions in Respect of Government Service), 21 (Payments Received by Students and
Apprentices), 22 (Payments Received by Professors, Teachers and Research Scholars) and 29
(Diplomatic Agents and Consul Officers), upon individuals who are neither citizens of, nor have
immigrant status in, that State.

ARTICLE 2
Taxes Covered
1. The existing taxes to which this Convention shall apply are:
(a) in the United States, the Federal income taxes imposed by the Internal Revenue
Code (but excluding the accumulated earnings tax, the personal holding company tax, and social
security taxes), and the excise taxes imposed on insurance premiums paid to foreign insurers
and with respect to private foundations (hereinafter referred to as "United States tax");
provided, however, the Convention shall apply to the excise taxes imposed on insurance
premiums paid to foreign insurers only to the extent that the risks covered by such premiums are
not reinsured with a person not entitled to exemption from such taxes under this or any other
Convention which applies to these taxes; and
(b) in India:
(i) the income tax including any surcharge thereon, but excluding income tax on
undistributed income of companies, imposed under the Income-tax Act; and
(ii) the surtax (hereinafter referred to as "Indian tax").
Taxes referred to in (a) and (b) above shall not include any amount payable in respect of any default or
omission in relation to the above taxes or which represent a penalty imposed relating to those taxes.
2. The Convention shall apply also to any identical or substantially similar taxes which are imposed
after the date of signature of the Convention in addition to, or in place of, the existing taxes. The
competent authorities of the Contracting States shall notify each other of any significant changes which
have been made in their respective taxation laws and of any official published material concerning the
application of the Convention.

ARTICLE 3
General Definitions
34

1. In this Convention, unless the context otherwise requires:
(a) the term “India” means the territory of India and includes the territorial sea and
airspace above it, as well as any other maritime zone in which India has sovereign rights, other
rights and jurisdictions, according to the Indian law and in accordance with international law;
(b) the term “United States”, when used in a geographical sense means all the territory
of the United States of America, including its territorial sea, in which the laws relating to United
States tax are in force, and all the area beyond its territorial sea, including the seabed and
subsoil thereof, over which the United States has jurisdiction in accordance with international
law and in which the laws relating to United States tax are in force;
(c) the terms “a Contracting State” and “the other Contracting State” mean India or the
United States as the context requires;
(d) the term “tax” means Indian tax or United States tax, as the context requires;
(e) the term “person” includes an individual, an estate, a trust, a partnership, a company,
any other body of persons, or other taxable entity;
(f) the term “company” means any body corporate or any entity which is treated as a
company or body corporate for tax purposes;
(g) the terms “enterprise of a Contracting State” and “enterprise of the other
Contracting State” mean respectively an enterprise carried on by a resident of a Contracting
State and an enterprise carried on by a resident of the other Contracting State;
(h) the term “competent authority” means, in the case of India, the Central Government
in the Ministry of Finance (Department of Revenue) or their authorized representative, and in the
case of the United States, the Secretary of the Treasury or his delegate;
(i) the term “national” means any individual possessing the nationality or citizenship of a
Contracting State;
(j) the term “international traffic” means any transport by a ship or aircraft operated by
an enterprise of a Contracting State, except when the ship or aircraft is operated solely between
places within the other Contracting State;
(k) the term “taxable year” in relation to Indian Tax means "previous year" as defined in
the Income-tax Act, 1961.
2. As regards the application of the Convention by a Contracting State any term not defined therein
shall, unless the context otherwise requires or the competent authorities agree to a common meaning
pursuant to the provisions of Article 27 (Mutual Agreement Procedure), have the meaning which it has
under the laws of that State concerning the taxes to which the Convention applies.

ARTICLE 4
Residence
1. For the purposes of this Convention, the “resident of a Contracting State” means any person
who, under the laws of that State, is liable to tax therein by reason of his domicile, residence, citizenship,

35

place of management, place of incorporation, or any other criterion of a similar nature, provided,
however, that
(a) this term does not include any person who is liable to tax in that State in respect only
of income from sources in that State; and
(b) in the case of income derived or paid by a partnership, estate, or trust, this term
applies only to the extent that the income derived by such partnership, estate, or trust is subject
to tax in that State as the income of a resident, either in its hands or in the hands of its partners
or beneficiaries.
2. Where by reason of the provisions of paragraph 1, an individual is a resident of both Contracting
States, then his status shall be determined as follows:
(a) he shall be deemed to be a resident of the State in which he has a permanent home
available to him; if he has a permanent home available to him in both States, he shall be deemed
to be a resident of the State with which his personal and economic relations are closer (centre of
vital interests);
(b) if the State in which he has his centre of vital interests cannot be determined, or if he
does not have a permanent home available to him in either State, he shall be deemed to be a
resident of die State in which he has an habitual abode;
(c) if he has an habitual abode in both States or in neither of them, he shall be deemed
to be a resident of the State of which he is a national;
(d) if he is a national of both States or of neither of them, the competent authorities of
the Contracting States shall settle the question by mutual agreement.
3. Where, by reason of paragraph 1, a company is a resident of both Contracting States, such
company shall be considered to be outside the scope of this Convention except for purposes of
paragraph 2 of Article 10 (Dividends), Article 26 (Non-discrimination), Article 27 (Mutual Agreement
Procedure), Article 28 (Exchange of Information and Administrative Assistance) and Article 30 (Entry
Into Force).
4. Where, by reason of the provisions of paragraph 1, a person other than an individual or a
company is a resident of both Contracting States, the competent authorities of the Contracting States
shall settle the question by mutual agreement and determine the mode of application of the Convention
to such person.

ARTICLE 5
Permanent Establishment
1. For the purposes of this Convention, the term “permanent establishment” means a fixed place of
business through which the business of an enterprise is wholly or partly carried on.
2. The term “permanent establishment” includes especially:
(a) a place of management;
36

(b) a branch;
(c) an office;
(d) a factory;
(e) a workshop;
(f) a mine, an oil or gas well, a quarry, or any other place of extraction of natural
resources;
(g) a warehouse, in relation to a person providing storage facilities for others;
(h) a farm, plantation or other place where agriculture, forestry, plantation or related
activities are carried on;
(i) a store or premises used as a sales outlet;
(j) an installation or structure used for the exploration or exploitation of natural
resources, but only if so used for a period of more than 120 days in any twelve month period;
(k) a building site or construction, installation or assembly project or supervisory
activities in connection therewith, where such site, project or activities (together with other such
sites, projects or activities, if any) continue for a period of more than 120 days in any twelve
month period;
(1) the furnishing of services, other than included services as defined in Article 12
(Royalties and Fees for Included Services), within a Contracting State by an enterprise through
employees or other personnel, but only if:
(i) activities of that nature continue within that State for a period or periods
aggregating more than 90 days within any twelve month period; or
(ii) the services are performed within that State for a related enterprise (within
the meaning of paragraph 1 of Article 9 (Associated Enterprises)).
3. Notwithstanding the preceding provisions of this Article, the term “permanent establishment’’ shall
be deemed not to include any one or more of the following:
(a) the use of facilities solely for the purpose of storage, display, or occasional delivery
of goods or merchandise belonging to the enterprise;
(b) the maintenance of a stock of goods or merchandise belonging to the enterprise
solely for the purpose of storage, display, or occasional delivery;
(c) the maintenance of a stock of goods or merchandise belonging to the enterprise
solely for the purpose of processing by another enterprise;
(d) the maintenance of a fixed place of business solely for the purpose of purchasing
goods or merchandise, or of collecting information, for the enterprise;
(e) the maintenance of a fixed place of business solely for the purpose of advertising, for
the supply of information, for scientific research or for other activities which have a preparatory
or auxiliary character, for the enterprise.
4. Notwithstanding the provisions of paragraphs 1 and 2, where a person - other than an agent of
an independent status to whom paragraph 5 applies - is acting in a Contracting State on behalf of an
enterprise of the other Contracting State, that enterprise shall be deemed to have a permanent
establishment in the first-mentioned State if:

37

(a) he has an habitually exercises in the first-mentioned State an authority to conclude
contracts on behalf of the enterprise, unless his activities are limited to those mentioned in
paragraph 3 which, if exercised through a fixed place of business, would not make that fixed
place of business a permanent establishment under the provisions of that paragraph;
(b) he has no such authority but habitually maintains in the first-mentioned State a stock
of goods or merchandise from which he regularly delivers goods or merchandise on behalf of
the enterprise, and some additional activities conducted in that State on behalf of the enterprise
have contributed to the sale of the goods or merchandise; or
(c) he habitually secures orders in the first-mentioned State, wholly or almost wholly for
the enterprise.
5. An enterprise of a Contracting State shall not be deemed to have a permanent establishment in
the other Contracting State merely because it carries on business in that other State through a broker,
general commission agent, or any other agent of an independent status, provided that such persons are
acting in the ordinary course of their business. However, when the activities of such an agent are
devoted wholly or almost wholly on behalf of that enterprise and the transactions between the agent and
the enterprise are not made under arm's-length conditions, he shall not be considered an agent of
independent status within the meaning of this paragraph.
6. The fact that a company which is a resident of a Contracting State controls or is controlled by a
company which is a resident of the other Contracting State, or which carries on business in that other
State (whether through a permanent establishment or otherwise), shall not of itself constitute either
company a permanent establishment of the other.

ARTICLE 6
Income from Immovable Property (Real Property)
1. Income derived by a resident of a Contracting State from immovable property (real property),
including income from agriculture or forestry, situated in the other Contracting State may be taxed in that
other State.
2. The term “immovable property” shall have the meaning which it has under the law of the
Contracting State in which the property in question is situated.
3. The provisions of paragraph 1 shall also apply to income derived from the direct use, letting, or
use in any other form of immovable property.
4. The provisions of paragraphs 1 and 3 shall also apply to the income from immovable property of
an enterprise and to income from immovable property used for the performance of independent
personal services.

38

ARTICLE 7
Business Profits
1. The profits of an enterprise of a Contracting State shall be taxable only in that State unless the
enterprise carries on business in the other Contracting State through a permanent establishment situated
therein. If the enterprise carries on business as aforesaid, the profits of the enterprise may be taxed in
the other State but only so much of them as is attributable to
(a) that permanent establishment;
(b) sales in the other State of goods or merchandise of the same or similar kind as those
sold through that permanent establishment; or
(c) other business activities carried on in the other State of the same or similar kind as
those effected through that permanent establishment.
2. Subject to the provisions of paragraph 3, where an enterprise of a Contracting State carries on
business in the other Contracting State through a permanent establishment situated therein, there shall in
each Contracting State be attributed to that permanent establishment the profits which it might be
expected to make if it were a distinct and independent enterprise engaged in the same or similar
activities under the same or similar conditions and dealing wholly at arm's-length with the enterprise of
which it is a permanent establishment and other enterprises controlling, controlled by or subject to the
same common control as that enterprise. In any case where the correct amount of profits attributable to
a permanent establishment is incapable of determination or the determination thereof presents
exceptional difficulties, the profits attributable to the permanent establishment may be estimated on a
reasonable basis. The estimate adopted shall, however, be such that the result shall be in accordance
with the principles contained in this Article.
3. In the determination of the profits of a permanent establishment, there shall be allowed as
deductions, expenses which are incurred for the purposes of the business of the permanent
establishment, including a reasonable allocation of executive and general administrative expenses,
research and development expenses, interest, and other expenses incurred for the purposes of the
enterprise as a whole (or the part thereof which includes the permanent establishment), whether incurred
in the State in which the permanent establishment is situated or elsewhere, in accordance with the
provisions of and subject to the limitations of the taxation laws of that State. However, no such
deduction shall be allowed in respect of amounts, if any, paid (otherwise than toward reimbursement of
actual expenses) by the permanent establishment to the head office of the enterprise or any of its other
offices, by way of royalties, fees or other similar payments in return for the use of patents, know-how or
other rights, or by way of commission or other charges for specific services performed or for
management, or, except in the case of banking enterprises, by way of interest on moneys lent to the
permanent establishment Likewise, no account shall be taken, in the determination of the profits of a
permanent establishment, for amounts charged (otherwise than toward reimbursement of actual
expenses), by the permanent establishment to the head office of the enterprise or any of its other offices,
by way of royalties, fees or other similar payments in return for the use of patents, know-how or other
rights, or by way of commission or other charges for specific services performed or for management, or,

39

except in the case of a banking enterprise, by way of interest on moneys lent to the head office of the
enterprise or any of its other offices.
4. No profits shall be attributed to a permanent establishment by reason of the mere purchase by
that permanent establishment of goods or merchandise for the enterprise.
5. For the purposes of this Convention, the profits to be attributed to the permanent establishment
as provided in paragraph 1(a) of this Article shall include only the profits derived from the assets and
activities of the permanent establishment and shall be determined by the same method year by year
unless there is good and sufficient reason to the contrary.
6. Where profits include items of income which are dealt with separately in other Articles of the
Convention, then the provisions of those Articles shall not be affected by the provisions of this Article.
7. For the purposes of the Convention, the term “business profits” means income derived from any
trade or business including income from the furnishing of services other than included services as defined
in Article 12 (Royalties and Fees for Included Services) and including income from the rental of tangible
personal property other than property described in paragraph 3(b) of Article 12 (Royalties and Fees for
Included Services).

ARTICLE 8
Shipping and Air Transport
1. Profits derived by an enterprise of a Contracting State from the operation by that enterprise of
ships or aircraft in international traffic shall be taxable only in that State.
2. For the purposes of this Article, profits from the operation of ships or aircraft in international
traffic shall mean profits derived by an enterprise described in paragraph 1 from the transportation by
sea or air respectively of passengers, mail, livestock or goods carried on by the owners or lessees or
charterers of ships or aircraft including(a) the sale of tickets for such transportation on behalf of other enterprises;
(b) other activity directly connected with such transportation; and
(c) the rental of ships or aircraft incidental to any activity directly connected with such
transportation.
3. Profits of an enterprise of a Contracting State described in paragraph 1 from the use,
maintenance, or rental of containers (including trailers, barges, and related equipment for the transport of
containers) used in connection with the operation of ships or aircraft in international traffic shall be
taxable only in that State.
4. The provisions of paragraphs 1 and 3 shall also apply to profits from participation in a pool, a
joint business, or an international operating agency.
40

5. For the purposes of this Article, interest on funds connected with the operation of ships or aircraft
in international traffic shall be regarded as profits derived from the operation of such ships or aircraft,
and the provisions of Article 11 (Interest) shall not apply in relation to such interest.
6. Gains derived by an enterprise of a Contracting State described in paragraph 1 from the
alienation of ships, aircraft or containers owned and operated by the enterprise, the income from which
is taxable only in that State, shall be taxed only in that State.
ARTICLE 9
Associated Enterprises
1. Where:
(a) an enterprise of a Contracting State participates directly or indirectly in the
management, control or capital of an enterprise of the Contracting State; or
(b) the same persons participate directly or indirectly in the management, control, or
capital of an enterprise of a Contracting State and an enterprise of the other Contracting State,
and in either case conditions are made or imposed between the two enterprises in their commercial or
financial relations which differ from those which would be made between independent enterprises, then
any profits which, but for those conditions would have accrued to one of the enterprises, but by reason
of those conditions have not so accrued, may be included in the profits of that enterprise and taxed
accordingly.
2. Where a Contracting State includes in the profits of an enterprise of that State, and taxes
accordingly, profits on which an enterprise of the other Contracting State has been charged to tax in feat
other State, and fee profits so included are profits which would have accrued to fee enterprise of fee
first-mentioned State if fee conditions made between fee two enterprises had been those which would
have been made between independent enterprises, then feat other State shall make an appropriate
adjustment to fee amount of fee tax charged therein on those profits. In determining such adjusting due
regard shall be had to fee other provisions of this Convention and fee competent authorities of fee
Contracting State shall if necessary consult each other.

ARTICLE 10
Dividends
1. Dividends paid by a company which is a resident of a Contracting State to a resident of fee other
Contracting State may be taxed in feat other State.
2. However, such dividends may also be taxed in fee Contracting State of which fee company
paying fee dividends is a resident, and according to fee laws of fee State, but if fee beneficial owner of
fee dividends is a resident of fee other Contracting State, fee tax so charged shall not exceed:

41

(a) 15 percent of the gross amount of the dividends if the beneficial owner is a company
which owns at least 10 percent of the voting stock of the company paying the dividends;
(b) 25 percent of the gross amount of the dividends in all other cases.
Subparagraph (b) and not subparagraph (a) shall apply in the case of dividends paid by a United States
person which is a Regulated Investment Company. Subparagraph (a) shall not apply to dividends paid
by a United States person which is a Real Estate Investment Trust, and subparagraph (b) shall only
apply if the dividend is beneficially owned by an individual holding a less than 10 percent interest in the
Real Estate Investment Trust. This paragraph shall not effect the taxation of the company in respect of
the profits out of which the dividends are paid.
3. The term “dividends” as used in this Article means income from shares or other rights not being
debt-claims, participating in profits, income from other corporate rights which are subjected to the same
taxation treatment as income from shares by the taxation laws of the State of which the company making
the distribution is a resident; and income from arrangements, including debt obligations, carrying the right
to participate in profits, to the extent so characterized under the laws of the Contracting State in which
the income arises.
4. The provisions of paragraphs 1 and 2 shall not apply if the beneficial owner of the dividends,
being a resident of a Contracting State, carries on business in the other Contracting State, of which the
company paying the dividends is a resident, through a permanent establishment situated therein, or
performs in that other State independent personal services from a fixed based situated therein, and the
dividends are attributable to such permanent establishment or fixed base. In such case the provisions of
Article 7 (Business Profits) or Article 15 (Independent Personal Services), as the case may be, shall
apply.
5. Where a company which is a resident of a Contracting State derives profits or income from the
other Contracting State, that other State may not impose any tax on the dividends paid by the company
except insofar as such dividends are paid to a resident of that other State or insofar as the holding in
respect of which the dividends are paid is effectively connected with a permanent establishment or a
fixed base situated in that other State, nor subject the company's undistributed profits to a tax on the
company's undistributed profits, even if the dividends paid or the undistributed profits consist wholly or
partly of profits or income arising in such other State.

ARTICLE 11
Interest
1. Interest arising in a Contracting State and paid to a resident of the other Contracting State may
be taxed in that other State.
2. However, such interest may also be taxed in the Contracting State in which it arises, and
according to the laws of that State, but if the beneficial owner of the interest is a resident of the other
Contracting State, the tax so charged shall not exceed:
42

(a) 10 percent of the gross amount of the interest if such interest is paid on a loan
granted by a bank carrying on a bona fide banking business or by a similar financial institution
(including an insurance company); and
(b) 15 percent of the gross amount of the interest in all other cases.
3. Notwithstanding the provisions of paragraph 2 of this Article, interest arising in a Contracting
State:

(a) and derived and beneficially owned by the Government of the other Contracting
State, a political subdivision or local authority thereof, the Reserve Bank of India, or the Federal
Reserve Banks of the United States, as the case may be, and such other institutions of either
Contracting State as the competent authorities may agree pursuant to Article 27 (Mutual
Agreement Procedure);
(b) with respect to loans or credits extended or endorsed
(i) by the Export-Import Bank of the United States, when India is the firstmentioned Contracting State; and
(ii) by the EXIM Bank of India, when the United States is the first-mentioned
Contracting State; and
(c) to the extent approved by the Government of that State, and derived and beneficially
owned by any person, other than a person referred to in subparagraphs (a) and (b), who is a
resident of the other Contracting State, provided that the transaction giving rise to the debtclaim has been approved in this behalf by the Government of the first-mentioned Contracting
State;
shall be exempt from tax in the first-mentioned Contracting State.
4. The term “interest” as used in this Convention means income from debt-claims of every kind,
whether or not secured by mortgage, and whether or not carrying a right to participate in the debtor's
profits, and in particular, income from government securities, and income from bonds or debentures,
including premiums or prizes attaching to such securities, bonds, or debentures. Penalty charges for late
payment shall not be regarded as interest for the purposes of the Convention. However, the term
“interest” does not include income dealt with in Article 10 (Dividends).
5. The provisions of paragraphs 2 and 3 shall not apply if the beneficial owner of the interest, being
a resident of a Contracting State, carries on business in the other Contracting State in which the interest
arises, through a permanent establishment situated therein, or performs in that other State independent
personal services from a fixed base situated therein, and the interest is attributable to such permanent
establishment or fixed base. In such case the provisions of Article 7 (Business Profits) or Article 15
(Independent Personal Services), as the case may be, shall apply.
6. Interest shall be deemed to arise in a Contracting State when the payer is that State itself or a
political subdivision, local authority, or resident of that State. Where, however, the person paying the
interest, whether he is a resident of a Contracting State or not, has in a Contracting State a permanent
establishment or a fixed base, and such interest is borne by such permanent establishment or fixed base,

43

then such interest shall be deemed to arise in the Contracting State in which the permanent establishment
or fixed base is situated.
7. Where, by reason of a special relationship between the payer and the beneficial owner or
between both of them and some other person, the amount of the interest, having regard to the debtclaim for which it is paid, exceeds the amount which would have been agreed upon by the payer and the
beneficial owner in the absence of such relationship, the provisions of this Article shall apply only to the
last-mentioned amount. In such case the excess part of the payments shall remain taxable according to
the laws of each Contracting State, due regard being had to the other provisions of the Convention.
ARTICLE 12
Royalties and Fees for Included Services
1. Royalties and fees for included services arising in a Contracting State and paid to a resident of the
other Contracting State may be taxed in that other State.
2. However, such royalties and fees for included services may also be taxed in the Contracting State
in which they arise and according to the laws of that State; but if the beneficial owner of the royalties or
fees for included services is a resident of the other Contracting State, the tax so charged shall not
exceed:
(a) in the case of royalties referred to in subparagraph (a) of paragraph 3 and fees for
included services as defined in this Article (other than services described in subparagraph (b) of
this paragraph):
(i) during the first five taxable years for which this Convention has effect,
(A) 15 percent of the gross amount of the royalties or fees for included
services as defined in this Article, where the payer of the royalties or fees is the
Government of that Contracting State, a political subdivision or a public sector
company; and
(B) 20 percent of the gross amount of the royalties or fees for included
services in all other cases; and
(ii) during the subsequent years, 15 percent of the gross amount of royalties or
fees for included services;
and
(b) in the case of royalties referred to in subparagraph (b) of paragraph 3 and fees for
included services as defined in this Article that are ancillary and subsidiaiy to the enjoyment of
the property for which payment is received under paragraph 3(b) of this Article, 10 percent of
the gross amount of the royalties or fees for included services.
3. The term “royalties” as used in this Article means:
(a) payments of any kind received as a consideration for the use of, or the right to use,
any copyright of a literary, artistic, or scientific work, including cinematograph films or work on
film, tape or other means of reproduction for use in connection with radio or television
broadcasting, any patent, trademark, design or model, plan, secret formula or process, or for
44

information concerning industrial, commercial or scientific experience, including gains derived
from the alienation of any such right or property which are contingent on the productivity, use,
or disposition thereof; and
(b) payments of any kind received as consideration for the use of, or the right to use,
any industrial, commercial, or scientific equipment, other than payments derived by an enterprise
described in paragraph 1 of Article 8 (Shipping and Air Transport) from activities described in
paragraph 2(c) or 3 of Article 8.
4. For purposes of this Article, "fees for included services" means payments of any kind to any
person in consideration for the rendering of any technical or consultancy services (including through the
provision of services of technical or other personnel) if such services:
(a) are ancillary and subsidiary to the application or enjoyment of the right, property or
information for which a payment described in paragraph 3 is received; or
(b) make available technical knowledge, experience, skill, know-how, or processes, or
consist of the development and transfer of a technical plan or technical design.
5. Notwithstanding paragraph 4, "fees for included services" does not include amounts paid:
(a) for services that are ancillaiy and subsidiary, as well as inextricably and essentially
linked, to the sale of property other than a sale described in paragraph 3(a);
(b) for services that are ancillary and subsidiary to the rental of ships, aircraft, containers
or other equipment used in connection with the operation of ships or aircraft in international
traffic;
(c) for teaching in or by educational institutions;
(d) for services for the personal use of the individual or individuals making the payment;
or
(e) to an employee of the person making the payments or to any individual or firm of
individuals (other than a company) for professional services as defined in Article 15
(Independent Personal Services).
6. The provisions of paragraphs 1 and 2 shall not apply if the beneficial owner of the royalties or
fees for included services, being a resident of a Contracting State, carries on business in the other
Contracting States, in which the royalties or fees for included services arise, through a permanent
establishment situated therein, or performs in that other State independent personal services from a fixed
base situated therein, and the royalties or fees for included services are attributable to such permanent
establishment or fixed base. In such case the provisions of Article 7 (Business Profits) or Article 15
(Independent Personal Services), as the case may be, shall apply.
7.

(a) Royalties and fees for included services shall be deemed to arise in a Contracting
State when the payer is that State itself, a political subdivision, a local authority, or a resident of
that State. Where, however, the person paying the royalties or fees for included services,
whether he is a resident of a Contracting State or not, has in a Contracting State a permanent
establishment or a fixed base in connection with which the liability to pay the royalties or fees for
included services was incurred, and such royalties or fees for included services are borne by
45

such permanent establishment or fixed base, then such royalties or fees or included services shall
be deemed to arise in the Contracting State in which the permanent establishment or fixed base
is situated.
(b) Where under subparagraph (a) royalties or fees for included services do not arise in
one of the Contracting States, and the royalties relate to the use of, or the right to rase, the right
or property, or the fees for included services relate to services performed, in one of the
Contracting States, the royalties or fees for included services shall be deemed to arise in that
Contracting State.
8. Where, by reason of a special relationship between the payer and the beneficial owner or
between both of them, and some other person, the amount of the royalties or fees for included services
paid exceeds the amount which would have been paid in the absence of such relationship, the provisions
of this Article shall apply only to the last-mentioned amount. In such case, the excess part of the
payments shall remain taxable according to the laws of each Contracting State, due regard being had to
the other provisions of the Convention.

ARTICLE 13
Gains
Except as provided in Article 8 (Shipping and Air Transport) of this Convention, each Contracting
State may tax capital gain in accordance with the provisions of its domestic law.

ARTICLE 14
Permanent Establishment Tax
1. A company which is a resident of India may be subject in the United States to a tax in addition to
the tax allowable under the other provisions of this Convention.
(a) Such tax, however, may be imposed only on:
(i) the portion of the business profits of the company subject to tax in the United
States which represents the dividend equivalent amount; and
(ii) the excess, if any, of interest deductible in the United States in computing the
profits of the company that are subject to tax in the United States and either attributable
to a permanent establishment in the United States or subject to tax in the United States
under Article 6 (Income from Immovable Property (Real Property)), Article 12
(Royalties and Fees for Included Services) as fees for included services, or Article 13
(Gains) of this Convention over the interest paid by or from the permanent establishment
or trade or business in the United States.
(b) For purposes of this article, business profits means profits that are effectively
connected (or treated as effectively connected) with the conduct of a trade or business within
the United States and are either attributable to a permanent establishment in the United States or
subject to tax in the United States under Article 6 (Income from Immovable Property (Real
46

Property)), Article 12 (Royalties and Fees for Included Services) as fees for included services
or Article 13 (Gains) of this Convention.
(c) The tax referred to in subparagraph (a) shall not be imposed at a rate exceeding:
(i) the rate specified in paragraph 2(a) of Article 10 (Dividends) for the tax
described in subparagraph (a)(1); and
(ii) the rate specified in paragraph 2 (a) or (b) (whichever is appropriate) of
Article 11 (Interest) for the tax described in subparagraph (a)(ii).
2. A company which is a resident of the United States may be subject to tax in India at a rate higher
than that applicable to the domestic companies. The difference in the tax rate shall not, however, exceed
the existing difference of 15 percentage points.
3. In the case of a banking company which is a resident of the United States, the interest paid by the
permanent establishment of such a company in India to the head office may be subject in India to a tax
in addition to the tax imposable under file other provisions of this Convention at a rate which shall not
exceed the rate specified in paragraph 2(a) of Article 11 (Interest).

ARTICLE 15
Independent Personal Services
1. Income derived by a person who is an individual or firm of individuals (other than a company)
who is a resident of a Contracting State from, the performance in the Other Contracting State of
professional services or other independent activities of a similar character shall be taxable only in the
first-mentioned State except in the following circumstances when such income may also be taxed in the
other Contracting State:
(a) if such person has a fixed base regularly available to him in the other Contracting
State for the purpose of performing his activities; in that case, only so much of the income as is
attributable to that fixed base may be taxed in that other State; or
(b) if the person's stay in the other Contracting State is for a period or periods
amounting to or exceeding in the aggregate 90 days in the relevant taxable year.
2. The term “professional services” includes independent scientific, literary, artistic, educational or
teaching activities as well as the independent activities of physicians, surgeons, lawyers, engineers,
architects, dentists and accountants.

ARTICLE 16
Dependent Personal Services
1. Subject to the provisions of Articles 17 (Directors' Fees), 18 (Income Earned by Entertainers
and Athletes), 19 (Remuneration and Pensions in Respect of Government Service), 20 (Private
Pensions, Annuities, Alimony, and Child Support), 21 (Payments Received by Students and
47

Apprentices) and 22 (Payments Received by Professors, Teachers and Research Scholars), salaries,
wages, and other similar remuneration derived by a resident of a Contracting State in respect of an
employment shall be taxable only in that State unless the employment is exercised in the other
Contracting State. If the employment is so exercised, such remuneration as is derived therefrom may be
taxed in that other State.
2. Notwithstanding the provisions of paragraph 1, remuneration derived by a resident of a
Contracting State in respect of an employment exercised in the other Contracting State shall be taxable
only in the first-mentioned State if:
(a) the recipient is present in the other State for a period or periods not exceeding in the
aggregate 183 days in the relevant taxable year;
(b) the remuneration is paid by, or on behalf of, an employer who is not a resident of the
other State; and
(c) the remuneration is not borne by a permanent establishment or a fixed base or a
trade or business which the employer has in the other State.
3. Notwithstanding the preceding provisions of this Article, remuneration derived in respect of an
employment exercised aboard a ship or aircraft operated in international traffic by an enterprise of a
Contracting State may be taxed in that State.

ARTICLE 17
Directors’ Fees
Directors' fees and similar payments derived by a resident of a Contracting State in his capacity as a
member of the board of directors of a company which is a resident of the other Contracting State may
be taxed in that other State.

ARTICLE 18
Income Earned by Entertainers and Athletes
1. Notwithstanding the provisions of Articles 15 (Independent Personal Services) and 16
(Dependent Personal Services), income derived by a resident of a Contracting State as an entertainer,
such as a theatre, motion picture, radio or television artiste, or a musician, or as an athlete, from his
personal activities as such exercised in the other Contracting State, may be taxed in that other State,
except where the amount of the net income derived by such entertainer or athlete from such activities
(after deduction of all expense incurred by him in connection with his visit and performance) does not
exceed one thousand five hundred United States dollars ($1,500) or its equivalent Indian rupees for the
taxable year concerned.
2. Where income in respect of activities exercised by an entertainer or an athlete in his capacity as
such accrues not to the entertainer or athlete but to another person, that income of that other person
may, notwithstanding the provisions of Articles 7 (Business Profits), 15 (Independent Personal Services)
48

and 16 (Dependent Personal Services), be taxed in the Contracting State in which the activities of the
entertainer or athlete are exercised unless the entertainer, athlete, or other person establishes that neither
the entertainer or athlete nor persons related thereto participate directly or indirectly in tire profits of that
other person in any manner, including the receipt of deferred remuneration, bonuses, fees, dividends,
partnership distributions, or other distributions.
3. Income referred to in the preceding paragraphs of this Article derived by a resident of a
Contracting State in respect of activities exercised in the other Contracting State shall not be taxed in
that other State if the visit of the entertainers or athletes to that other State is supported wholly or
substantially from the public funds of the Government of the first-mentioned Contracting State, or of a
political subdivision or local authority thereof.
4. The competent authorities of the Contracting States may, by mutual agreement, increase the
dollar amounts referred to in paragraph 1 to reflect economic or monetary developments.

ARTICLE 19
Remuneration and Pensions in Respect of Government Service
1.

(a) Remuneration, other than a pension, paid by a Contracting State or a political
subdivision or a local authority thereof to an individual in respect of services rendered to that
State or subdivision or authority shall be taxable only in that State.
(b) However, such remuneration shall be taxable only in the other Contracting State if
the services are rendered in that other State and the individual is a resident of that State who:
(i) is a national of that State; or
(ii) did not become a resident of that State solely for the purpose of rendering
the services.

2.

(a) Any pension paid by, or out of funds created by, a Contracting State or a political
subdivision or a local authority thereof to an individual in respect of services rendered to that
state or subdivision or authority shall be taxable only in that State.
(b) However, such pension shall be taxable only in the other Contracting State if the
individual is a resident of, and a national of, that State.

3. The provisions of Articles 16 (Dependent Personal Services), 17 (Directors' Fees), 18 (Income
Earned by Entertainers and Athletes) and 20 (Private Pensions, Annuities, Alimony and Child Support)
shall apply to remuneration and pensions in respect of services rendered in connection with a business
carried on by a Contracting State or a political subdivision or a local authority thereof.

ARTICLE 20
Private Pensions. Annuities, Alimony and Child Support
49

1. Any pension, other than a pension referred to in Article 19 (Remuneration and Pensions in
Respect of Government Service), or any annuity derived by a resident of a Contracting State from
sources within the other Contracting State may be taxed only in the first-mentioned Contracting State.
2. Notwithstanding paragraph 1, and subject to the provisions of Article 19 (Remuneration and
Pensions in Respect of Government Service), social security benefits and other public pensions paid by
a Contracting State to a resident of the other Contracting State or a citizen of the United States shall be
taxable only in the first-mentioned State.
3. The term “pension” means a periodic payment made in consideration of past services or by way
or compensation for injuries received in the course of performance of services.
4. The term “annuity” means stated sums payable periodically at stated times during life or during a
specified or ascertainable number of years, under an obligation to make the payments in
return for adequate and full consideration in money or money's worth (but not for services rendered).
5. Alimony paid to a resident of a Contracting State shall be taxable only in that State. The term
“alimony” as used in this paragraph means periodic payments made pursuant to a written separation
agreement or a decree of divorce, separate maintenance, or compulsory support, which payments are
taxable to the recipient under the laws of the State of which he is a resident.
6. Periodic payments for the support of a minor child made pursuant to a written separation
agreement or a decree of divorce, separate maintenance or compulsory support, paid by a resident of a
Contracting State to a resident of the other Contracting State, shall be taxable only in the first-mentioned
State.

ARTICLE 21
Payments Received by Students and Apprentices
1. A student or business apprentice who is or was a resident of one of the Contracting States
immediately before visiting the other Contracting State and who is present in that other State principally
for the purpose of his education or training shall be exempt from tax in that other State, on payments
which arise outside that other State for the purposes of his maintenance, education or training.
2. In respect of grants, scholarships and remuneration from employment not covered by paragraph
1, a student or business apprentice described in paragraph 1 shall, in addition, be entitled during such
education or training to the same exemptions, reliefs or reductions in respect of taxes available to
residents of file State which he is visiting.
3. The benefits of this Article shall extend only for such period of time as may be reasonable or
customarily required to complete the education or training undertaken.
50

4. For the purposes of this Article, an individual shall be deemed to be a resident of a Contracting
State if he is resident in that Contracting State in the taxable year in which he visits the other Contracting
State or in the immediately proceeding taxable year.

ARTICLE 22
Payments Received by Professors. Teachers and Research Scholars
1. An individual who visits a Contracting State for a period not exceeding two years for the purpose
of teaching or engaging in research at a university, college or other recognized educational institution in
that State, and who was immediately before that visit a resident of the other Contracting State, shall be
exempted from tax by the first-mentioned Contracting State on any remuneration for such teaching or
research for a period not exceeding two years from the date he first visits that State for such purpose.
2. This Article shall apply to income from research only if such research is undertaken by the
individual in the public interest and not primarily for the benefit of some other private person or persons.

ARTICLE 23
Other Income
1. Subject to the provisions of paragraph 2, items of income of a resident of a Contracting State,
wherever arising, which are not expressly dealt with in the foregoing Articles of this Convention shall be
taxable only in that Contracting State.
2. The provisions of paragraph 1 shall not apply to income, other than income from immovable
property as defined in paragraph 2 of Article 6 (Income from Immovable Property (Real Property)), if
the beneficial owner of the income, being a resident of a Contracting State, carries on business in the
other Contracting State through a permanent establishment situated therein, or performs in that other
State independent personal services from a fixed base situated therein, and the income is attributable to
such permanent establishment or fixed base. In such case the provisions of Article 7 (Business Profits)
or Article 15 (Independent Personal Services), as the case may be, shall apply.
3. Notwithstanding the provisions of paragraphs 1 and 2, items of income of a resident of a
Contracting State not dealt with in the foregoing articles of this Convention and arising in the other
Contracting State may also be taxed in that other State.

ARTICLE 24
Limitation on Benefits

51

1. A person (other than an individual) which is a resident of a Contracting State and derives income
from the other Contracting State shall be entitled under this Convention to relief from taxation in that
other Contracting State only if:
(a) more than 50 percent of the beneficial interest in such person (or in the case of a
company, more than 50 percent of the number of shares of each class of the company's shares)
is owned, directly or indirectly, by one or more individual residents of one of the Contracting
States, one of the Contracting States or its political subdivisions or local authorities, or other
individuals subject to tax in either Contracting State or their worldwide incomes, or citizens of
the United States; and
(b) the income of such person is not used in substantial part, directly or indirectly, to
meet liabilities (including liabilities for interest or royalties) to persons who are not residents of
one of the Contracting States, one of the Contracting States or its political subdivisions or local
authorities, or citizens of the United States.
2. The provisions of paragraph 1 shall not apply if the income derived from the other Contracting
State is derived in connection with, or is incidental to, the active conduct by such person of a trade or
business in the first-mentioned State (other than the business of making or managing investments, unless
these activities are banking or insurance activities carried on by a bank or insurance company).
3. The provisions of paragraph 1 shall not apply if the person deriving the income is a company
which is a resident of a Contracting State in whose principal class of shares there is substantial and
regular trading on a recognized stock exchange. For purposes of the preceding sentence, the term
“recognized stock exchange” means:
(a) in the case of the United States, the NASDAQ System owned by the National
Association of Securities Dealers, Inc. and any stock exchange registered with the Securities
and Exchange Commission as a national securities exchange for purposes of the Securities Act
of 1934;
(b) in the case of India, any stock exchange which is recognized by the Central
Government under the Securities Contracts Regulation Act, 1956; and
(c) any other stock exchange agreed upon by the competent authorities of the
Contracting States.
4. A person that is not entitled to the benefits of this Convention pursuant to the provisions of the
preceding paragraphs of this Article may, nevertheless, be granted the benefits of the Convention if the
competent authority of the State in which the income in question arises so determines.

ARTICLE 25
Relief from Double Taxation
1. In accordance with the provisions and subject to the limitations of the law of the United States (as
it may be amended from time to time without changing the general principle hereof), the United States
52

shall allow to a resident or citizen of the United States as a credit against the United States tax on
income:
(a) the income tax paid to India by or on behalf of such citizen or resident; and
(b) in the case of a United States company owning at least 10 percent of the voting
stock of a company which is a resident of India and from which the United States company
receives dividends, the income tax paid to India by or on behalf of die distributing company with
respect to the profits out of which the dividends are paid.
For the purposes of this paragraph, the taxes referred to in paragraphs 1(b) and 2 of Article 2 (Taxes
Covered) shall be considered income taxes.
2.

(a) Where a resident of India derives income which, in accordance with the provisions
of this Convention, may be taxed in the United States, India shall allow as a deduction from the
tax on the income of that resident an amount equal to the income tax paid in the United States,
whether directly or by deduction. Such deduction shall not, however, exceed that part of the
income tax (as computed before the deduction is given) which is attributable to the income
which may be taxed in the United States.
(b) Further, where such resident is a company by which a surtax is payable in India, the
deduction in respect of income tax paid in the United States shall be allowed in the first instance
from income tax payable by the company in India and as to the balance, if any, from surtax
payable by it in India.

3. For the purposes of allowing relief from double taxation pursuant to this Article, income shall be
deemed to arise as follows:
(a) income derived by a resident of a Contracting State which may be taxed in the other
Contracting State in accordance with this Convention (other than solely by reason of citizenship
in accordance with paragraph 3 of Article 1 (General Scope)) shall be deemed to arise in that
other State
(b) income derived by a resident of a Contracting State which may not be taxed in the
other Contracting State in accordance with the Convention shall be deemed to arise in the firstmentioned State.
Notwithstanding the proceeding sentence, the determination of the source of income for purposes of this
Article shall be subject to such source rules in the domestic laws of the Contracting States as apply for
the purpose of limiting the foreign tax credit. The preceding sentence shall not apply with respect to
income dealt with in Article 12 (Royalties and Fees for Included Services). The rules of this paragraph
shall not apply in determining credits against United States tax for foreign taxes other than the taxes
referred to in paragraphs 1(b) and 2 of Article 2 (Taxes Covered).

ARTICLE 26
Non-discrimination
1. Nationals of a Contracting State shall not be subjected in the other Contracting State to any
taxation or any requirement connected therewith which is other or more burdensome than the taxation
53

and connected requirements to which nationals of that other State in the same circumstances are or may
be subjected. This provision shall apply to persons who are not residents of one or both of the
Contracting States.
2. Except where the provisions of paragraph 3 of Article 7 (Business Profits) apply, the taxation on
a permanent establishment which an enterprise of a Contracting State has in the other Contracting State
shall not be less favorably levied in that other State than the taxation levied on enterprises of that other
State canying on the same activities. This provision shall not be construed as obliging a Contracting
State to grant to residents of the other Contracting State any personal allowances, reliefs, and
reductions for taxation purposes on account of civil status or family responsibilities which it grants to its
own residents.
3. Except where the provisions of paragraph 1 of Article 9 (Associated Enterprises), paragraph 7 of
Article 11 (Interest), or paragraph 8 of Article 12 (Royalties and Fees for Included Services) apply,
interest, royalties, and other disbursements paid by a resident of a Contracting State to a resident of the
other Contracting State shall, for the purposes of determining the taxable profits of the first-mentioned
resident, be deductible under the same conditions as if they had been paid to a resident of the firstmentioned State.
4. Enterprises of a Contracting State, the capital of which is wholly or partly owned or controlled,
directly or indirectly, by one or more residents of the other Contracting State, shall not be subjected in
the first-mentioned State to any taxation or any requirement connected therewith which is other or more
burdensome than the taxation and connected requirements to which other similar enterprises of the firstmentioned State are or may be subjected.
5. Nothing in this article shall be construed as preventing either Contracting State from imposing the
taxes described in Article 14 (Permanent Establishment Tax) or the limitations described in paragraph 3
of Article 7 (Business Profits).

ARTICLE 27
Mutual Agreement Procedure
1. Where a person considers that the actions of one or both of the Contracting States result or will
result for him in taxation not in accordance with the provisions of this Convention, he may, irrespective
of the remedies provided by the domestic law of those States, present his case to the competent
authority of the Contracting State of which he is a resident or national. This case must be presented
within three years of the date of receipt of notice of the action which gives rise to taxation not in
accordance with the Convention.
2. The competent authority shall endeavour, if the objection appears to it to be justified and if it is
not itself able to arrive at a satisfactory solution, to resolve the case by mutual agreement with the
competent authority of the other Contracting State, with a view to the avoidance of taxation which is not
54

in accordance with the Convention. Any agreement reached shall be implemented notwithstanding any
time limits or other procedural limitations in the domestic law of the Contracting States.
3. The competent authorities of the Contracting States shall endeavour to resolve by mutual
agreement any difficulties or doubts arising as to the interpretation or application of the Convention.
They may also consult together for the elimination of double taxation in cases not provided for in the
Convention.
4. The competent authorities of the Contracting States may communicate with each other directly
for the purpose of reaching an agreement in the sense of the preceding paragraphs. The competent
authorities, through consultations, shall develop appropriate bilateral procedures, conditions, methods
and techniques for the implementation of the mutual agreement procedure provided for in this Article. In
addition, a competent authority may devise appropriate unilateral procedures, conditions, methods and
techniques to facilitate the above-mentioned bilateral actions and the implementation of the mutual
agreement procedure.

ARTICLE 28
Exchange of Information and Administrative Assistance
1. The competent authorities of the Contracting States shall exchange such information (including
documents) as is necessary for carrying out the provisions of this Convention or of the domestic laws of
the Contracting States concerning taxes covered by the Convention insofar as the taxation thereunder is
not contrary to the Convention, in particular, for the prevention of fraud or evasion of such taxes. The
exchange of information is not restricted by Article 1 (General Scope). Any information received by a
Contracting State shall be treated as secret in the same manner as information obtained under the
domestic laws of that State. However, if the information is originally regarded as secret in the
transmitting State, it shall be disclosed only to persons or authorities (including courts and administrative
bodies) involved in the assessment, collection, or administration of, the enforcement or prosecution in
respect of, or the determination of appeals in relation to, the taxes which are the subject of the
Convention. Such persons or authorities shall use the information only for such purposes, but may
disclose the information in public court proceedings or injudicial decisions. The competent authorities
shall, through consultation, develop appropriate conditions, methods and techniques concerning the
matters in respect of which such exchange of information shall be made, including, where appropriate,
exchange of information regarding tax avoidance.
2. The exchange of information or documents shall be either on a routine basis or on request with
reference to particular cases, or otherwise. The competent authorities of the Contracting States shall
agree from time to time on the list of information or documents which shall be furnished on a routine
basis.
3. In no case shall the provisions of paragraph 1 be construed so as to impose on a Contracting
State the obligation:
55

(a) to cany out administrative measures at variance with the laws and administrative
practice of that or of the other Contracting State;
(b) to supply information which is not obtainable under the laws or in the normal course
of the administration of that or of the other Contracting State;
(c) to supply information which would disclose any trade, business, industrial,
commercial, or professional secret or trade process, or information the disclosure of which
would be contrary to public policy (ordre public).
4. If information is requested by a Contracting State in accordance with this Article, the other
Contracting State shall obtain the information to which the request relates in the same manner and in the
same form as if the tax of the first-mentioned State were the tax of that other State and were being
imposed by that other State. If specifically requested by the competent authority of a Contracting State,
the competent authority of the other Contracting State shall provide information under this Article in the
form of depositions of witnesses and authenticated copies of unedited original documents (including
books, papers, statements, records, accounts, and writings), to the same extent such depositions and
documents can be obtained under the laws and administrative practices of that other State with respect
to its own taxes.
5. For the purpose of this Article, the Convention shall apply, notwithstanding the provisions of
Article 2 (Taxes Covered):
(a) in the United States, to all taxes imposed under Title 26 of the United States Code;
and
(b) in India, to the income tax, the wealth tax and the gift tax.

ARTICLE 29
Diplomatic Agents and Consular Officers
Nothing in this Convention shall affect the fiscal privileges of diplomatic agents or consular officers
under the general rules of international law or under the provisions of special agreements.

ARTICLE 30
Entry Into Force
1. Each Contracting State shall notify the other Contracting State in writing, through diplomatic
channels, upon the completion of their respective legal procedures to bring this Convention into force.
2. The Convention shall enter into force on the date of the latter of such notifications and its
provisions shall have effect:
(a) in the United States

56

(i) in respect of taxes withheld at source, for amounts paid or credited on or
after the first day of January next following the date on which the Convention enters into
force;
(ii) in respect of other taxes, for taxable periods beginning on or after the first
day of January next following the date on which the Convention enters into force; and
(b) in India, in respect of income arising in any taxable year beginning on or after the first
day of April next following the calendar year in which the Convention enters into force.

ARTICLE 31
Termination
This Convention shall remain in force indefinitely but either of the Contracting States may, on or
before the thirtieth day of June in any calendar year beginning after the expiration of a period of five
years from the date of the entry into force of the Convention, give the other Contracting State through
diplomatic channels, written notice of termination and, in such event, this Convention shall cease to have
effect:
(a) in the United States
(i) in respect of taxes withheld at source, for amounts paid or credited on or
after the first day of January next following the calendar year in which notice of
termination is given; and
(ii) in respect of other taxes, for taxable periods begin following the calendar
year in which the notice of termination is given; and
(b) in India, in respect of income arising in any taxable year beginning on or after the first
day of April next following the calendar year in which the notice of termination is given.
IN WITNESS WHEREOF, the undersigned, being duly authorized by their respective
Governments, have signed this Convention.
DONE at New Delhi in duplicate, this 12th day of September, 1989, in the English and Hindi
languages, both texts being equally authentic. In case of divergence between the two texts, the English
text shall be the operative one.
FOR THE GOVERNMENT OF THE
UNITED STATES OF AMERICA:
JOHN R. HUBBARD,
Ambassador.

FOR THE GOVERNMENT OF THE
REPUBLIC OF INDIA:
N.K. SENGUPTA,
Secretary to the Government ofIndia

PROTOCOL
At the signing today of the Convention between the United States of America and the Republic of
India for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion with respect to Taxes
57

on Income, the undersigned have agreed upon the following provisions, which shall form an integral part
of the Convention:

I. Ad Article 5
It is understood that where an enterprise of a Contracting State has a permanent establishment in the
other Contracting State in accordance with the provisions of paragraphs 2(j), 2(k) or 2(1) of Article 5
(Permanent Establishment), and the time period referred to in that paragraph extends over two taxable
years, a permanent establishment shall not be deemed to exist in a year, if any, in which the use, site,
project or activity, as the case may be, continues for a period or periods aggregating less than 30 days
in that taxable year. A permanent establishment will exist in the other taxable year, and the enterprise
will be subject to tax in that other Contracting State in accordance with provisions of Article 7 (Business
Profits), but only on income arising during that other taxable year.
II. Ad Article 7
Where the law of the Contracting State in which a permanent establishment is situated imposes, in
accordance with the provisions of paragraph 3 of Article 7 (Business Profits), a restriction on the
amount of executive and general administrative expenses which may be allowed as a deduction in
determining the profits of such permanent establishment, it is understood that in making such a
determination of profits the deduction in respect of such executive and general administrative expenses
in no case shall be less than that allowable under the Indian Income-tax Act as on the date of signature
of this Convention.

III. Ad Articles 7, 10, 11, 12, 15, and 23
It is understood that for the implementation of paragraphs 1 and 2 of Article 7 (Business Profits);
paragraph 4 of Article 10 (Dividends), paragraph 5 of Article 11 (Interest), paragraph 6 of Article 12
(Royalties and Fees for Included Services), paragraph 1 of Article 15 (Independent Personal Services),
and paragraph 2 of Article 23 (Other Income), any income attributable to a permanent establishment or
fixed base during its existence is taxable in the Contracting State in which such permanent establishment
or fixed base is situated even if the payments are deferred until such permanent establishment or fixed
base has ceased to exist.

IV. Ad Article 12
It is understood that fees for included services, as defined in paragraph 4 of Article 12 (Royalties
and Fees for Included Services) will, in accordance with United States law, be subject to income tax in
the United States based on net income and, when earned by a company, will also be subject to the
taxes described in paragraph 1 of Article 14 (Permanent Establishment Tax). The total of these taxes
58

which may be imposed on such fees, however, may not exceed the amount computed by multiplying the
gross fee by the appropriate tax rate specified in subparagraph (a) or (b), whichever is applicable, of
paragraph 2 of Article 12.

V. Ad Article 14
It is understood that references in paragraph 1 of Article 14 (Permanent Establishment Tax) to
profits that are subject to tax in the United States under Article 6 (Income from Immovable Property
(Real Property)), under Article 12 (Royalties and Fees for Included Services), as fees for included
services as defined in that Article, or under Article 13 (Gains) of this Convention, are intended to refer
only to cases in which the profits in question are subject to United States tax based on net income (i.e.,
by virtue of being effectively connected, or being treated as effectively connected, with the conduct of a
trade or business in the United States). Any income which is subject to tax under those Articles based
on gross income is not subject to tax under Article 14.
IN WITNESS WHEREOF, the undersigned, being duly authorized by their respective
Governments, have signed this Protocol.
DONE at New Delhi in duplicate, this 12th day of September, 1989, in the English and Hindi
languages, both texts being equally authentic. In case of divergence between the two texts, the English
text shall be the operative one.
FOR THE GOVERNMENT OF THE
UNITED STATES OF AMERICA:
JOHN R. HUBBARD,
Ambassador.

FOR THE GOVERNMENT OF THE
REPUBLIC OF INDIA:
N.K. SENGUPTA,
Secretary to the Government ofIndia.

NOTES OF EXCHANGE 1
EMBASSY OF THE UNITED STATES OF AMERICA,
New Delhi, September 12, 1989.
His Excellency, DR. N.K. SENGUPTA,
Secretary (Revenue),
Ministry ofFinance, New Delhi.
EXCELLENCY: I have the honor to refer to the Convention between the Government of the
United States of America and the Government of the Republic of India for the Avoidance of Double
Taxation and the Prevention of Fiscal Evasion with Respect to Taxes on Income which was signed
today (hereinafter referred to as "the Convention") and to confirm, on behalf of the Government of the
United States of America, the following understandings reached between the two Governments:
59

Both sides agree that a tax sparing credit shall not be provided in Article 25 (Relief from Double
Taxation) of the Convention at this time. However, the Convention shall be promptly amended to
incorporate a tax sparing credit provision if the United States hereafter amends its laws concerning the
provision of tax sparing credits or the United States reaches agreement on the provision of a tax' sparing
credit with any other country.
Both sides also agree that, for purposes of paragraph 4(c) of Article 5 (Permanent Establishment) of
the Convention, a person shall be considered to habitually secure orders in a Contracting State, wholly
or almost wholly for an enterprise, only if:
1. such person frequently accepts orders for goods or merchandise on behalf of the enterprise;
2. substantially all of such person's sales-related activities in the Contracting State consist of
activities for the enterprise;
3. such person habitually represents to persons offering to buy goods or merchandise that
acceptance of an order by such person constitutes the agreement of the enterprise to supply
goods or merchandise under the terms and conditions specified in the order; and
4. the enterprise takes actions that give purchasers the basis for a reasonable belief that such person
has authority to bind the enterprise.
I have the honor to request Your Excellency to confirm the foregoing understandings of Your
Excellency's Government.
Accept, Excellency, the renewed assurances of my highest consideration.
JOHN R. HUBBARD,
Ambassador.

GOVERNMENT OF INDIA,
MINISTRY OF FINANCE, DEPARTMENT OF REVENUE,
New Delhi, September 12, 1989.
His Excellency, Dr. JOHN R. HUBBARD,
Ambassador of the United States ofAmerica,
New Delhi.
EXCELLENCY: I have the honour to acknowledge receipt of Your Excellency's Note of today's
date, which reads as follows:
"I have the honor to refer to the Convention between the Government of the United States of
America and the Government of the Republic of India for the Avoidance of Double Taxation and the
Prevention of Fiscal Evasion with Respect to Taxes on Income which was signed today (hereinafter
60

referred to as "the Convention") and to confirm, on behalf of the Government of the United States of
America, the following understanding reached between the two Governments:
Both sides agree that a tax sparing credit shall not be provided in Article 25 (Relief from Double
Taxation) of the Convention at this time. However, the Convention shall be promptly amended to
incorporate a tax sparing credit provision if the United States hereafter amends its laws concerning the
provision of tax sparing credits, or the United States reaches agreement on the provision of a tax sparing
credit with any other country.
Both sides also agree that, for purposes of paragraph 4(c) of Article 5 (Permanent Establishment) of
the Convention, a person shall be considered to habitually secure orders in a Contracting State, wholly
or almost wholly for an enterprise, only if:
1. such person frequently accepts orders for goods or merchandise on behalf of the enterprise;
2. substantially all of such person's sales-related activities in the Contracting State consist of
activities for the enterprise;
3. such person habitually represents to persons offering to buy goods or merchandise that
acceptance of an order by such person constitutes the agreement of the enterprise to supply goods or
merchandise under the terms and conditions specified in the order; and
4. the enterprise takes actions that give purchasers the basis for a reasonable belief that such person
has authority to bind the enterprise."
I have the honour to confirm the understandings contained in Your Excellency's Note, on behalf of
the Government of the Republic of India.
Accept, Excellency, the renewed assurances of my highest consideration.
N.K. SENGUPTA,
Secretary.

NOTES OF EXCHANGE 2
EMBASSY OF THE UNITED STATES OF AMERICA,
New Delhi, September 12, 1989.
His Excellency, Dr. N.K. SENGUPTA,
Secretary (Revenue),
Ministry ofFinance, New Delhi.
EXCELLENCY: I have the honor to refer to the Convention signed today between the United
States of America and the Republic of India for the Avoidance of Double Taxation and the Prevention
of Fiscal Evasion with Respect to Taxes on Income and to inform you on behalf of the United States of
America of the following:
61

During the course of the negotiations leading to conclusion of the Convention signed today, the
negotiators developed and agreed upon a memorandum of understanding intended to give guidance
both to the taxpayers and the tax authorities of our two countries in interpreting aspects of Article 12
Royalties and Fees for Included Services) relating to the scope of included services. This memorandum
of understanding represents the current views of the United States Government with respect to these
aspects of Article 12, and it is my Government's understanding that it also represents the current views
of the Indian Government. It is also my Government's view that as our Governments gain experience in
administering the Convention, and particularly Article 12, the competent authorities may develop and
publish amendments to the memorandum of understanding and further understandings and
interpretations of the Convention.
If this position meets with the approval of the Government of the Republic of India, this letter and
your reply thereto will indicate that our Governments share a common view of the purpose of the
memorandum of understanding relating to Article 12 of the Convention.
Accept, Excellency, the renewed assurances of my highest consideration.
JOHN R. HUBBARD,
Ambassador.

GOVERNMENT OF INDIA,
MINISTRY OF FINANCE, DEPARTMENT OF REVENUE,
New Delhi, September 12, 1989.
His Excellency, Dr. JOHN R HUBBARD,
Ambassador of the United States ofAmerica,
New Delhi.
EXCELLENCY: I have the honour to acknowledge receipt of Your Excellency's Note of today's
date, which reads as follows:
"I have the honor to refer to the Convention signed today between the United States of America
and the Republic of India for the Avoidance of Double Taxation and the Prevention of Fiscal Evasion
with Respect to Taxes on Income and to inform you on behalf of the United States of America of the
following:
During the course of the negotiations leading to conclusion of the Convention signed today, the
negotiators developed and agreed upon a memorandum of understanding intended to give guidance
both to the taxpayers and the tax authorities of our two countries in interpreting aspects of Article 12
(Royalties and Fees for Included Services) relating to the scope of included services. This memorandum
of understanding represents the current views of the United States Government with respect to these
62

aspects of Article 12, and it is my Government's understanding that it also represents the current views
of the Indian Government. It is also my Government's view that as our Governments gain experience in
administering the Convention, and particularly Article 12, the competent authorities may develop and
publish amendments to the memorandum of understanding and further understandings and
interpretations of the Convention.
If this position meets with the approval of the Government of the Republic of India, this letter and
your reply thereto will indicate that our Governments share a common view of the purpose of the
memorandum of understanding relating to Article 12 of the Convention."
I have the honour to confirm the understandings contained in Your Excellency's Note, on behalf of
the Government of the Republic of India
Accept, Excellency, the renewed assurances of my highest consideration.
N.K. SENGUPTA,
Secretary.

MEMORANDUM OF UNDERSTANDING
MAY 15,1989.
U.S. - INDIA TAX TREATY
MEMORANDUM OF UNDERSTANDING CONCERNING FEES FOR INCLUDED
SERVICES IN ARTICLE 12
Paragraph 4 (in general)
This memorandum describes in some detail the category of services defined in paragraph 4 of
Article 12 (Royalties and Fees for Included Services). It also provides examples of services intended to
be covered within the definition of included services and those intended to be excluded, either because
they do not satisfy the tests of paragraph 4, or because, notwithstanding the fact that they meet the tests
of paragraph 4, they are dealt with under paragraph 5. The examples in either case are not intended as
an exhaustive list but rather as illustrating a few typical cases. For ease of understanding, the examples in
this memorandum describe U.S. persons providing services to Indian persons, but the rules of Article
12 are reciprocal in application.
Article 12 includes only certain technical and consultancy services. By technical services, we mean
in this context services requiring expertise in a technology. By consultancy services, we mean m this
context advisory services. The categories of technical and consultancy services are to some extent
63

overlapping because a consultancy service could also be a technical service. However, the category of
consultancy services also includes an advisory service, whether or not expertise in a technology is
required to perform it.
Under paragraph 4 technical and consultancy services are considered included services only to the
following extent: (1) as described in paragraph 4(a), if they are ancillary and subsidiary to the application
or enjoyment of a right, property or information for which a royalty payment is made; or (2) as
described in paragraph 4(b), if they make available technical knowledge, experience, skill, know-how,
or processes, or consist of the development and transfer of a technical plan or technical design. Thus,
under paragraph 4(b), consultancy services which are not of a technical nature cannot be included
services.
Paragraph 4(a)
Paragraph 4(a) of Article 12 refers to technical or consultancy services that are ancillary and
subsidiary to the application or enjoyment of any right, property, or information for which a payment
described in paragraph 3(a) or (b) is received. Thus, paragraph 4(a) includes technical and consultancy
services that are ancillary and subsidiary to the application or enjoyment of an intangible for which a
royalty is received under a license or sale as described in paragraph 3(a), as well as those ancillary and
subsidiary to the application or enjoyment of industrial, commercial, or scientific equipment for which a
royalty is received under a lease as described in paragraph 3(1)).
It is understood that, in order for a service fee to be considered "ancillary and subsidiary" to the
application or enjoyment of some right, property, or information for which a payment described in
paragraph 3(a) or (b) is received, the service must be related to the application or enjoyment of the
right, property, or information. In addition, the clearly predominant purpose of the arrangement under
which the payment of the service fee and such other payment are made must be the application or
enjoyment of the right, property, or information described in paragraph 3. The question of whether the
service is related to the application or enjoyment of the right, property, or information described in
paragraph 3 and whether the clearly predominant purpose of the arrangement is such application or
enjoyment must be determined by reference to
the facts and circumstances of each case. Factors which may be relevant to such determination
(although not necessarily controlling) include:
1. the extent to which the services in question facilitate the effective application or
enjoyment of the right, property, or information described in paragraph 3;
2. the extent to which such services are customarily provided in the ordinary course of
business arrangements involving royalties described in paragraph 3;
3. whether the amount paid for the services (or which would be paid by parties
operating at arm's length) is an insubstantial portion of the combined payments for the services
and the right, property, or information described in paragraph 3;
4. whether the payment made for the services and the royalty described in paragraph 3
are made under a single contract (or a set of related contracts); and

64

5. whether the person performing the services is the same person as, or a related person
to, the person receiving the royalties described in paragraph 3 (for this purpose, persons are
considered related if their relationship is described in Article 9 (Associated Enterprises) or if the
person providing the service is doing so in connection with an overall arrangement which
includes the payor and recipient of the royalties).
To the extent that services are not considered ancillary and subsidiary to the application or
enjoyment of some right, property, or information for which a royalty payment under paragraph 3 is
made, such services shall be considered "included services" only to the extent that they are described in
paragraph 4(b).
Example (1)
Facts:

A U.S. manufacturer grants rights to an Indian company to use manufacturing processes
in which the transferor has exclusive rights by virtue of process patents or the protection
otherwise extended by law to the owner of a process. As part of the contractual
arrangement, the U.S. manufacturer agrees to provide certain consultancy services to
the Indian company in order to improve the effectiveness of the latter's use of the
process. Such services include, for example, the provision of information and advice on
sources of supply for materials needed in the manufacturing process, and on the
development of sales and service literature for the manufactured product. The payments
allocable to such services do not form a substantial part of the total consideration
payable under the contractual arrangement. Are the payments for these services fees for
"included services"?

Analysis:

The payments are fees for included services. The services described in this example are
ancillary and subsidiary to the use of a manufacturing process protected by law as
described in paragraph 3(a) of Article 12 because the services are related to the
application or enjoyment of the intangible and the granting of the right to use the
intangible is the clearly predominant purpose of the arrangement. Because the services
are ancillary and subsidiary to the use of the manufacturing process, the fees for these
services are considered fees for included services under paragraph 4(a) of Article 12,
regardless of whether the services are described in paragraph 4(b).
Example (2)

Facts:

An Indian manufacturing company produces a product that must be manufactured under
sterile conditions using machinery that must be kept completely free of bacterial or other
harmful deposits. A U.S. company has developed a special cleaning process for
removing such deposits from that type of machinery. The U.S. company enters into a
contract with the Indian company under which the former will clean the latter's
machinery on a regular basis. As part of the arrangement, the U.S. company leases to
the Indian company a piece of equipment which allows the Indian company to measure
65

the level of bacterial deposits on its machinery in order for it to know when cleaning is
required. Are the payments for the services fees for included services?
Analysis:

In this example, the provision of cleaning services by the U. S. company and the rental
of the monitoring equipment are related to each other. However, the clearly
predominant purpose of the arrangement is the provision of cleaning services. Thus,
although the cleaning services might be considered technical services, they are not
'ancillary and subsidiary" to the rental of the monitoring equipment. Accordingly, the
cleaning services are not "included services" within the meaning of paragraph 4(a).

Paragraph 4(b)
Paragraph 4(b) of Article 12 refers to technical or consultancy services that make available to the
person acquiring the service technical knowledge, experience, skill, know-how, or processes, or consist
of the development and transfer of a technical plan or technical design to such person. (For this
purpose, the person acquiring the service shall be deemed to include an agent, nominee, or transferee of
such person.) This category is narrower than the category described in paragraph 4(a) because it
excludes any service that does not make technology available to the person acquiring the service.
Generally speaking, technology will be considered "made available" when the person acquiring the
service is enabled to apply the technology. The fact that the provision of the service may require
technical input by the person providing the service does not per se mean that technical knowledge,
skills, etc. are made available to the person purchasing the service, within the meaning of paragraph
4(b). Similarly, the use of a product which embodies technology shall not per se he considered to make
the technology available.
Typical categories of services that generally involve either the development and transfer of technical
plans or technical designs, or making technology available as described in paragraph 4(b), include:
1. engineering services (including the subcategories of bioengineering and aeronautical,
agricultural, ceramics, chemical, civil, electrical, mechanical, metallurgical, and industrial
engineering);
2. architectural services; and
3. computer software development.
Under paragraph 4(b), technical and consultancy services could make technology available in a
variety of settings, activities and industries. Such services may, for example, relate to any of the
following areas:
1. bio-technical services;
2. food processing;
3. environmental and ecological services;
4. communication through satellite or otherwise;
5. energy conservation;
6. exploration or exploitation of mineral oil or natural gas;
66

7. geological surveys;
8. scientific services; and
9. technical training.
The following examples indicate the scope of the conditions in paragraph 4(b):
Example (3)
Facts:

A U.S. manufacturer has experience in the use of a process for manufacturing wallboard
for interior walls of houses which is more durable than the standard products of its type.
An Indian builder wishes to produce this product for its own use. It rents a plant and
contracts with the U.S. company to send experts to India to show engineers in the
Indian company how to produce the extra strong wallboard. The U.S. contractors work
with die technicians in the Indian firm for a few months. Are the payments to the U.S.
firm considered to be payments for "included services"?

Analysis:

The payments would be fees for included services. The services are of a technical or
consultancy nature; in the example, they have elements of both types of services. The
services make available to the Indian company technical knowledge, skill, and
processes.
Example (4)

Facts:

A U.S. manufacturer operates a wallboard fabrication plant outside India. An Indian
builder hires the U.S. company to produce wallboard at that plant for a fee. The Indian
company provides the raw materials, and the U.S. manufacturer fabricates the
wallboard in its plant, using advanced technology. Are the fees in this example for
included services?

Analysis:

The fees would not be for included services. Although the U.S. company is clearly
performing a technical service, no technical knowledge, skill, etc., are made available to
the Indian company, nor is there any development and transfer of a technical plan or
design. The U.S. company is merely performing a contract manufacturing service.
Example (5)

Facts:

An Indian firm owns inventory control software for use in its chain of retail outlets
throughout India It expands its sales operation by employing a team of traveling
salesmen to travel around the countryside selling the company's wares. The company
wants to modify its software to permit the salesmen to access the company's central
computers for information on what products are available in inventory and when they
can be delivered. The Indian firm hires a U.S. computer programming firm to modify its

67

software for this purpose. Are the fees which the Indian firm pays treated as fees for
included services?
Analysis:

The fees are for included services. The U.S. company clearly performs a technical
service for the Indian company, and it transfers to the Indian company the technical plan
(i.e., the computer program) which it has developed.
Example (6)

Facts:

An Indian vegetable oil manufacturing company wants to produce a cholesterol-free oil
from a plant which produces oil normally containing cholesterol. An American company
has developed a process for refining the cholesterol out of the oil. The Indian company
contracts with the U.S. company to modify the formulas which it uses so as to eliminate
the cholesterol, and to train the employees of the Indian company in applying the new
formulas. Are the fees paid by the Indian company for included services?

Analysis:

The fees are for included services. The services are technical, and the technical
knowledge is made available to the Indian company.
Example (7)

Facts:

The Indian vegetable oil manufacturing firm has mastered the science of producing
cholesterol-free oil and wishes to market the product world-wide. It hires an American
marketing consulting firm to do a computer simulation of the world market for such oil
and to advise it on marketing strategies. Are the fees paid to the U.S. company for
included services?

Analysis:

The fees would not be for included services. The American company is providing a
consultancy service which involves the use of substantial technical skill and expertise. It
is not, however, making available to the Indian company any technical experience,
knowledge or skill, etc., nor is it transferring a technical plan or design. What is
transferred to the Indian company through the service contract is commercial
information. The fact that technical skills were required by the performer of the service
in order to perform the commercial information service does not make the service a
technical service within the meaning of paragraph 4(b).

Paragraph 5
Paragraph 5 of Article 12 describes several categories of services which are not intended to be
treated as included services even if they satisfy the tests of paragraph 4. Set forth below are examples of
cases where fees would be included under paragraph 4, but are excluded because of the conditions of
paragraph 5.
68

Example (8)
Facts:

An Indian company purchases a computer from a U.S. computer manufacturer. As part
of the purchase agreement, the manufacturer agrees to assist the Indian company in
setting up the computer and installing the operating system, and to ensure that the staff
of the Indian company is able to operate the computer. Also, as part of the purchase
agreement, the seller agrees to provide, for a period of ten years, any updates to the
operating system and any training necessary to apply the update. Both of these service
elements to the contract would qualify under paragraph 4(b) as an included service.
Would either or both be excluded from the category of included services, under
paragraph 5(a), because they are ancillary and subsidiary, as well as inextricably and
essentially linked, to the sale of the computer?

Analysis:

The installation assistance and initial training are ancillary and subsidiary to the sale of
the computer, and they are also inextricably and essentially linked to the sale. The
computer would be of little value to the Indian purchaser without these services, which
are most readily and usefully provided by the seller. The fees for installation assistance
and initial training, therefore, are not fees for included services, since these services are
not the predominant purpose of the arrangement.

The services of updating the operating system and providing associated necessary training may well be
ancillary and subsidiary to the sale of the computer, but they are not inextricably and essentially linked to
the sale. Without the upgrades, the computer will continue to operate as it did when purchased, and will
continue to accomplish the same functions. Acquiring the updates cannot, therefore, be said to be
inextricably and essentially linked to the sale of the computer.
Example (9)
Facts:

An Indian hospital purchases an X-ray machine from a U.S. manufacturer. As part of
the purchase agreement, the manufacturer agrees to install the machine, to perform an
initial inspection of the machine in India, to train hospital staff in the use of the machine,
and to service the machine periodically during the usual warranty period (2 years).
Under an optional service contract purchased by the hospital, the manufacturer also
agrees to perform certain other services throughout the life of the machine, including
periodic inspections and repair services, advising the hospital about developments in Xray film or techniques which could improve the effectiveness of the machine, and training
hospital staff in the application of those new developments. The cost of fire initial
installation, inspection, training, and warranty service is relatively minor as compared
with the cost of the X-ray machine. Is any of the service described here ancillary and
subsidiary, as well as inextricably and essentially linked, to the sale of the X-ray
machine?

69

Analysis:

The initial installation, inspection, and training services in India and the periodic service
during the warranty period are ancillary and subsidiary, as well as inextricably and
essentially linked, to the sale of the X-ray machine because the usefulness of the
machine to the hospital depends on this service, the manufacturer has full responsibility
during this period, and the cost of the services is a relatively minor component of the
contract. Therefore, under paragraph 5(a) these fees are not fees for included services,
regardless of whether they otherwise would fall within paragraph 4(b).

Neither the post-warranty period inspection and repair services, nor the advisory and training
services relating to new developments are "inextricably and essentially linked" to the initial purchase of
the X-ray machine. Accordingly, fees for these services may be treated as fees for included services if
they meet the tests of paragraph 4(b).
Example (10)
Facts:

An Indian automobile manufacturer decides to expand into the manufacture of
helicopters. It sends a group of engineers from its design staff to a course of study
conducted by the Massachusetts Institute of Technology (MIT) for two years to study
aeronautical engineering. The Indian firm pays tuition fees to MIT on behalf of the firm's
employees. Is the tuition fee a fee for an included service within the meaning of Article
12?

Analysis:

The tuition fee is clearly intended to acquire a technical service for the firm. However,
the fee paid is for teaching by an educational institution, and is, therefore, under
paragraph 5(c), not an included service. It is irrelevant for this purpose whether MIT
conducts the course on its campus or at some other location.
Example (11)

Facts:

As in Example (10), the automobile manufacturer wishes to expand into the manufacture
of helicopters. It approaches an Indian university about establishing a course of study in
aeronautical engineering. The university contracts with a U.S. helicopter manufacturer to
send an engineer to be a visiting professor of aeronautical engineering on its faculty for a
year. Are the amounts paid by the university for these teaching services fees for included
services?

Analysis:

The fees are for teaching in an educational institution. As such, pursuant to paragraph
5(c), they are not fees for included services.
Example (12)

Facts:

An Indian wishes to install a computerized system in his home to control lighting, heating
and air conditioning, a stereo sound system and a burglar and fire alarm system. He
70

hires an American electrical engineering firm to design the necessary wiring system,
adapt standard software, and provide instructions for installation. Are the fees paid to
the American firm by the Indian individual fees for included services?
Analysis:

The services in respect of which the fees are paid are of the type which would generally
be treated as fees for included services under paragraph 4(1)). However, because the
services are for the personal use of the individual making the payment, under paragraph
5(d) the payments would not be fees for included services.

71

APPENDIX-E: Transcript of Mary Estelle
Curran Inheritance Case

72

1
1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA

2
Case No. 12-80206-CR-RYSKAMP
3
4

UNITED STATES OF AMERICA,)

Plaintiff,

)
)

7

MARY ESTELLE CURRAN,

)
)
)
)

8

Defendant.

5
6

-V-

)
)

9

West Palm Beach, Florida
April 25, 2013
1:24 p.m.

10
11

TRANSCRIPT OF SENTENCING PROCEEDINGS

12

BEFORE THE HONORABLE KENNETH L. RYSKAMP

13

U.S. SENIOR DISTRICT JUDGE

14
15

Appearances:

16

For the Government:

MARK F. DALY
US DEPARTMENT OF JUSTICE
TAX DIVISION
601 D Street NW, Room 7334
Washington, DC 20579

For the Defendant:

BLACK SREBNICK KORNSPAN & STUMPF
BY: ROY BLACK, ESQ.
201 South Biscayne Boulevard
Suite 1300
Miami, Florida 33131

Reporter:
(561) 514-3728

Karl Shires, RPR, FCRR
Official Court Reporter
701 Clematis Street, Suite 258
West Palm Beach, Florida 33401

17
18
19
20
21
22
23
24
25

STENOGRAPHICALLY RECORDED COMPUTER-AIDED TRANSCRIPT

73

2
1

(Call to Order of the Court.)

2

THE COURT:

3

Good afternoon.

4

You may be seated.
First case will be United States

versus Curran.

5

Counsel state their appearance, please.

6

MR DALY:

Your Honor, Mark Daly, Senior Litigation

7

Counsel, Tax Division of the US Department of Justice.

8

is Assistant United States Thomas Lanigan and Special Agent

9

Scott Johnson of the IRS.

10

THE COURT:

All right.

11

MR. BLACK:

Good afternoon, Your Honor.

With me

Roy Black,

12

Nathan Hoffman, and Jackie Perczek on behalf of Mrs. Curran,

13

who is here as well.

14
15

THE COURT:

Okay.

You've received a copy of the

presentence report and reviewed it with your client?

16

MR. BLACK:

Yes, sir.

17

THE COURT:

And there are no errors,

18

omissions, or

corrections?

19

MR. BLACK:

No,

20

THE COURT:

All right.

21

MR. BLACK:

Your Honor, we have no witnesses to

22

present.

sir.
You may proceed.

We've sent you our sentencing memorandum.

23

THE COURT:

I have read it.

24

MR. BLACK:

And we have attached all of the letters.

25

All that I intended to do was make some short remarks and
74

3

1

proceed to the sentencing.

2

THE COURT:

All right.

4

MR. BLACK:

Thank you, Your Honor.

5

Mrs. Curran accepts full responsibility for these

3

I'll hear from you at this

time.

6

offenses that she's pled guilty to.

7

herself for being in this position, about being charged and

8

being subjected to sentencing before the Court today.

9

She blames nobody but

However, we believe that there are mitigating

10

circumstances that make her case different than virtually all

11

of the others who were prosecuted or not prosecuted under

12

similar circumstances as her with these offshore accounts, and

13

we believe that she has shown an extraordinary acceptance of

14

responsibility.

15

And, Your Honor, to go through just

I'm not going

16

to go through the same things we wrote in our sentencing

17

memorandum, but I do want to highlight a couple of issues.

18

First is that this is a woman who was unsophisticated

19

in financial matters, had no training in finance or taxes or

20

handling even her own personal accounts.

21

years of her marriage she did not even see the monthly bank

22

statements.

23

Senior, who was a financial analyst, an investment banker, a

24

man who was very well versed in finances, and he's the one who

25

handled all of their accounts.

For the first 30

Everything was handled by her husband Mortimer,

75

4
1

She did not work outside the house at all except she

2

spent her life in volunteer work.

3

hospitals, at thrift stores, at soup kitchens, at

4

rehabilitation centers working with children, working with the

5

disabled.

6

and died in the year 2000.

7

about the extent of their finances and learned about these

8

accounts.

9

I mean,

she worked at

That was her entire life until her husband got sick
And that's when she then learned

The accounts that are in question were established

10

with funds that her husband inherited from his aunt who lived

11

in Monte Carlo and died and left part of her estate to him.

12

was not funds that were ever in the United States.

13

a US taxpayer.

14

living in Monte Carlo, and there were no tax consequences of

15

this money.

It

She was not

She was a citizen and I think she was English

16

However, her husband left the money in Europe and it

17

grew from what was not a large amount into a very significant

18

amount of money.

19

into this account by her husband or after his death by

20

Mrs. Curran.

21

that's how the funds grew.

22

creation of the accounts, of depositing money into it and

23

growing these accounts.

24

At his death in the year 2000 she inherited the accounts along

25

with other funds from her late husband.

However, there was never any deposits put

Whatever money was there was left there, and
And she had nothing to do with the

But she did inherit these accounts.

76

5
1

And this is where she made the mistakes.

2

all make mistakes in our lives and we hope that we're not

3

judged but just on our mistakes but we're judged on how we

4

handle those mistakes.

5

inherited these accounts and got possession of them, or at

6

least a beneficial interest in them, she did not handle it

7

correctly, did not advise her US lawyers or US accountants, and

8

had the European bankers, accountants and lawyers handle it.

9

So there's no question that's where her mistakes were in not

10
11

You know, we

And her mistake was that when she

reporting the accounts when she inherited them.
However, she tried to rectify that mistake.

In the

12

year 2000 she wanted to make a voluntary disclosure of all the

13

funds in any of these accounts.

14

bankers in Europe and asked how she could disclose this.

15

recommended that she obtain a tax lawyer in the United States

16

to do this.

17

On her own she contacted the
They

She then retained a tax lawyer, gave him all of the

18

information, more than sufficient, to make the voluntary

19

disclosure according to the Internal Revenue Service programs

20

that were available at the time.

21

voluntary disclosure programs were created.

22

to make a regular voluntary disclosure to the IRS.

23

This is before the offshore
So she was going

Unfortunately, he waited too long, over a month, and

24

during that period of time UBS, the bank in question, gave the

25

names of 250 people to the Internal Revenue Service.
77

And by

6
1

the time her voluntary disclosure came in, they had already had

2

her name for some three to four weeks.

3

the Internal Revenue Service if they have your name before you

4

make the voluntary disclosure, you are not eligible for their

5

program.

6

And under the rules of

So even though she tried to do a voluntary disclosure

7

and her voluntary disclosure was filed seven days before the

8

first amnesty program was put into effect by the Internal

9

Revenue Service, her application was denied.

And she was not

10

able to because of that obtain any benefit for attempting to

11

disclose it or any benefit from the three voluntary offshore

12

disclosure funds that were thereafter created by the Internal

13

Revenue Service.

14

UBS for some reason reported 285 people out of the

15

some 50,000 that had accounts with them, and she was one of

16

those 250.

17

differently than the overwhelming majority of people.

18

report was seven days before the first offshore voluntary

19

program went into effect.

20

And, of course, this caused her to be treated far
And her

So 38,000 people went through the three offshore

21

voluntary disclosure programs after her and received immunity

22

from prosecution.

23

different than her.

24

20 percent for the FBAR violation of the largest amount of

25

money in the account.

They were also treated and penalized far
They were penalized mainly at the rate of

She was penalized by 50 percent.
78

She

7
1

has been prosecuted criminally,

2

38,000 were not.

3

all those 38,000 people did not suffer that designation.

4

indicted and arrested, and the

And she has now been adjudicated a felon,

The IRS created these amnesty programs called the

5

Offshore Voluntary Disclosure Fund in 2009, 2011, and 2012.

6

The one that's been created in 2012 has no time limit.

7

anybody from now on into the future can make a voluntary

8

disclosure and receive immunity from prosecution.

9

said,

10

and

So

And as I

some 38,000 people have taken advantage of this.
Every one of those people got advanced warning from

11

the Internal Revenue Service to do this, but not Mrs. Curran.

12

The IRS warned United States taxpayers the consequences of not

13

entering the program, but not Mrs. Curran.

14

38,000 people were given a second chance three times, yet

15

Mrs. Curran never received a second chance at all.

16

received the benefit of any of these programs.

17

Now, Your Honor,

Every one of these

She never

I know that one of the important

18

concepts of sentencing in a tax case is deterrence, and we all

19

know that we have a voluntary tax program and deterrence is

20

important so people pay their taxes.

21

granting her probation in this case is not inconsistent with

22

the aims of the Internal Revenue Service and the idea or

23

concept of deterrence.

24
25

However,

I believe that

The government through the Internal Revenue Service
created these amnesty programs not as a matter of deterrence.
79

8
1

That was not the aim of creating the program.

2

Internal Revenue Service commissioner Doug Shulman said,

3

said all along, the goal is to get people into the United

4

States tax system."

5

of any of these programs.

6

people back into the United States tax system.

7

I think what's important here in terms of thinking about a

8

sentence that deterrence is not really the same as it would be

9

in the ordinary tax case.

But as the
"as I

And so deterrence was not really the aim
It was really to reintegrate these
And that's why

In addition to her attempts to disclose her accounts,

10
11

she also has another matter she did that I think shows her

12

cooperation.

13

program

14

US Attorney and agents of the Internal Revenue Service.

15

that time she made a full disclosure to them.

16

entered into any kind of investigation or prosecution of her

17

she gave a sworn statement

18

hundred percent sure -- and gave them full cooperation and

19

described everything that she did, described every person who

20

worked with her, gave the names of all of the bankers, the

21

lawyers, the managers of all of the accounts, gave the dates

22

and times and information about everything that occurred with

23

them.

24

did all that she could to cooperate with the United States

25

Government.

Soon after being denied entrance into the

on June 4, 2009, she agreed to meet with an Assistant

Long before they

I think it was sworn.

And this was back, as I said,

80

At

in June of 2009.

I'm not a

And she

9
1

Your Honor, some 50 plus taxpayers have been

2

criminally prosecuted out of those 50,000, and her situation

3

also is far different than theirs.

4

account to skim money off of a business that she was running in

5

the United States.

6

in a United States business in order to hide her income.

7

did not funnel money back to the United States from these

8

accounts claiming they were sham loans or some other method of

9

doing it.

She did not use this

She did not create false business documents

She did none of these things.

She

She did not make any

10

extravagant purchases.

11

different than most of the others.

12

sentenced to probation.

13

community service, but almost all were sentenced to a period of

14

probation.

15

this case has recommended probation and why the government is

16

not objecting to it.

17

And so her situation is really far
And yet, most of them were

Some with house arrest or with

And I think that's why the probation officer in

Just two other personal matters, and then I will

18

conclude.

19

works that Mrs. Curran has done.

20

entire working life doing volunteer work.

21

person who only donated money.

22

time and effort from feeding people in soup kitchens to

23

visiting them in the hospitals and working with the disabled.

24

And the one that I particularly believe is worthy of

25

In our memorandum we listed out many charitable
As I said,

she spent her

But she is not a

This is a woman who spent her

note is she worked with the Rehabilitation Center for Children
81

10
1

and Adults that's located here in Palm Beach.

2

for 32 years.

3

preschool.

4

neurological disorders,

5

neurological disorders, which are incurable.

6

with children trying to assist them in doing such things as we

7

take for granted, like climbing the stairs, being able to go to

8

the playground, trying to work with them so they could go to a

9

normal kindergarten class.

She worked there

For 32 years she worked with the children in the

And these are children who suffer from mainly
from Down's syndrome to other
And she worked

And this is very hard work.

Most

10

people don't want to do this.

11

severely disabled children for which there is no cure and some

12

of whom the families are desperate.

13

just making donations but 32 years of herself.

14

that's probably one of the most noteworthy things that I have

15

seen that people do.

16

People do not want to see

But she spent 32 years not
And I think

One last matter which I think sort of sums up how

17

seriously Mrs. Curran treats this case that's before Your Honor

18

this afternoon.

19

called us and asked us the address of the courthouse.

20

the next time we saw her we asked her, well, why did you want

21

to know where the courthouse was?

22

anxious and worried that she wanted to practice driving to this

23

courthouse because she did not want to keep the prosecutors and

24

the Court waiting for her and she was so afraid that she might

25

be late.

Before we first came to this courthouse she
And then

And she said that she was so

And I think that sort of sums up what her attitude
82

11
1

is, what her attitude to this case is, and tells you who she

2

is.

3

And I would echo what the Probation Department has

4

said.

5

of probation.

I would humbly ask the Court to sentence her to a period

6

THE COURT:

I had a couple of questions.

7

MR. BLACK:

Yes, sir.

8

THE COURT:

The account that was in Switzerland,

9

it

had a foundation named in it?

10

MR. BLACK:

Yes.

The husband set up what was called

11

a

some type of a foundation, and at their death the money

12

was to go to three different universities.
THE COURT:

13

The foundation wasn't giving regularly,

14

was just being held, accumulated, and then to be distributed

15

upon their death?

it

16

MR. BLACK:

Yes.

17

THE COURT:

So her name wasn't on the account nor was

18

her husband's name?

19

MR. BLACK:

No.

20

THE COURT:

I guess they would have a record of them

21

as being the principals in the foundation, right?
MR. BLACK:

22

They were the beneficial owners of

Their name was not on the case.

23

the case.

24

of the foundation.

25

Right.

THE COURT:

It was in the name

But it was a revocable thing,
83

I image.

12
1

MR. BLACK:

Yes, it was revocable.

2

THE COURT:

And apparently they traveled in Europe and

3

sometimes they used some of this money, did they?

4

MR. BLACK:

15, or $20,000.

Somewhere, depending on

5

the trip,

6

which whether it is accurate or not, as long as the funds were

7

spent in Europe it did not violate US law.

8

thought at one time.
THE COURT:

9
10

10,

Yes, Your Honor.

And what Mrs. Curran thought,

That's what she

I think maybe a lot of people think that,

and maybe reasonably so.

11

MR. BLACK:

Yes, sir.

13

THE COURT:

At what point did she make this payment?

14

Was it after the indictment

15

the information?

12

16

But unfortunately that's not

the law.

MR. BLACK:

Well,

or is it an information?

she made a deposit

Before

she had paid

17

taxes before she was charged,

18

Service to create what's called a closing statement to get all

19

of the figures together.

20

payments before she was charged.

21

undergoing this process.

22

prior to today.

23
24
25

THE COURT:

and then we had to wait for the

But she made deposits and made
In fact, when we were

And now she has fully paid everything

All right.

Let me hear from the

government at this time.
MR. BLACK:

Thank you, Your Honor.
84

13
1
2

THE COURT:

Let me ask you at the outset, do you

basically disagree with anything Mr. Black said?

3

MR DALY:

We don't disagree with anything that

4

Mr. Black says.

5

highlighted as well as within the presentence investigation

6

report, the government doesn't oppose the variance downward.

7

Factually, Mr. Black has made a correct presentation.

8
9
10

Based on many of the factors that he

THE COURT:

to the government this case ought to be dismissed and let this
thing go?

11

MR DALY:

12

THE COURT:

13

Based upon those facts, did it ever occur

No, Your Honor.
It's totally consistent with all of the

amnesty programs the government has been running.

14

MR DALY:

Your Honor,

there is a certain level of

15

randomness to the level of government prosecution, but the

16

government drew a bright line in February 2009 in which it said

17

if at this point you haven't told the government about your

18

foreign bank account, you cannot, you cannot seek amnesty with

19

the IRS to the DOJ.

20

THE COURT:

What Mr. Black said was she had already

21

turned it over to a lawyer to handle it.

22

delayed it, and she would have qualified under it.
MR DALY:

23

Apparently the lawyer

Had she come in prior to the production of

24

her name she would have qualified.

25

hadn't.

But at that point she

And the government has to draw bright lines as to
85

14
1

where

2

THE COURT:

I don't know if the government has to do

3

anything.

4

discretion and the government decided they wanted to make a

5

felon out of this woman.

6

It seems to me the government has a lot of

MR DALY:

Well, Your Honor,

I think that's

I think

7

while the fact of when the information was handed over,

8

ignores the fact of when the US investigation of UBS AG came to

9

light.

Starting in June 2008 there were numerous articles in

10

the Wall Street Journal,

11

government's investigation of foreign bankers.

12

Birkenfeld was prosecuted here.

13

it

THE COURT:

in the New York Times about the
Bradley

This case is totally out of the scope of

14

all of your others case where people are skimming, were trying

15

to hide funds.

16

I think a lot of reasonable people would think you don't have

17

to report this.

I mean, this was an inheritance over there, and

MR DALY:

18

Your Honor, Mr. Curran, the late Mr. Curran

19

was a very wealthy man.

20

accountants at the time of his death in 2000.

21

that time had every opportunity to tell those accountants I

22

have tens of millions dollars in Switzerland.

23
24
25

THE COURT:

They had attorneys and they had
Mrs. Curran at

Didn't she have advisers in Switzerland

also who
MR DALY:

Right, but no reasonable person would ignore
86

15
1

the US tax lawyers and accountants that they have.

2

turn to a foreign national to ask you for an interpretation of

3

US law.

4

THE COURT:

5

MR DALY:

6

THE COURT:

7
8
9
10
11
12

address the court?

All right.

You don't

Anything else you want to say?

No, Your Honor.
Mr. Black, does your client wish to
It's not necessary.

She may not care to.

(Defendant and counsel conferring sotto voce.)
MR. BLACK:

Your Honor,

I think she is a little too

nervous to say anything.
THE COURT:

I understand.

I have to always give them

the opportunity if they would like to.

13

MR. BLACK:

Yes, sir.

14

THE COURT:

Well, this is really a tragic situation.

15

It's unfortunate and it seems to me the government should have

16

used a little more discretion in handling this.

17

Did you ever suggest to the government, Mr. Black,

18

that they should dismiss this case and settle for the -- what,

19

21 million did she pay?

20

MR. BLACK:

Your Honor,

21

discussions with them.

22

government because I think they were within their discretion

23

and in their rules.

24

THE COURT:

25

However,

I think -- we did have long
I cannot criticize the

Within their discretion, but they could

exercise some discretion.

87

16
1

MR. BLACK:

Yes, Your Honor.

But I find it hard to

2

criticize them for what they did.

3

conversations, but I think that they have their rules and they

4

proceeded ahead.

5

And we had many

And I don't want to criticize them for that.

THE COURT:

Okay.

The Court has considered the

6

statements of all parties, the presentence report which

7

contains the advisory guidelines and the statutory factors as

8

set forth in Title 18 United States Code § 3353(a).

9

Pursuant to the Title 18 United States Code §

10

3553(a)(1)

11

range of 30 to 37 months is warranted in this case.

12

and (2), a variance from the advisory guideline

Based upon the history and characteristics of the

13

defendant, a sentence of probation will provide for just

14

punishment for this offense.

15

unnecessarily harsh.

16
17

A term of imprisonment would be

It is the finding of the Court that the defendant is
not able to pay a fine.

18

It is the judgment of the Court that the defendant,

19

Mary Estelle Curran,

20

year.

This term consists of a term of one year as to Counts 1

21

and 2,

all such terms to run concurrently.

22
23

is placed on probation for a period of one

Now, you understand you're under probation, don't you,
Mrs. Curran?

24

THE DEFENDANT:

25

THE COURT:

Yes,

sir.

I'm now revoking probation.
88

Probation is

17
1

terminated.

2

there.

You were on probation for about five seconds

3

THE DEFENDANT:

4

THE COURT:

Thank you.

The law requires me to put you on -- if I

5

don't put you in jail,

6

doesn't say how long you have to stay there.

7

officially off probation now.

8
9

10

I've got to put you on probation.

It

So you are

The defendant shall immediately pay to the United
States a special assessment of $100 as to each of Counts 1 and
2 for a total of $200.
Now that sentence has been imposed,

11

does the defendant

12

or her counsel object to the Court's finding of fact or to the

13

manner in which the sentence was pronounced?

14

MR. BLACK:

No, Your Honor.

15

THE COURT:

You have a right to appeal the sentence

16

imposed.

Any notice of appeal must be filed within 14 days

17

after the entry of judgment.

18

costs of an appeal, you may apply for leave to appeal without

19

payment of cost.

If you are unable to pay the

20

Do you understand that?

21

THE DEFENDANT:

22

THE COURT:

Yes,

sir.

Mr. Black,

I would urge you to file a

23

petition for a pardon with the executive branch.

24

them the Court thinks that this woman's felony should be

25

removed.

And if the government doesn't join it,
89

You can tell

then it's just

18
1
2
3

spiteful I think.
MR. BLACK:

We certainly

appreciate Your Honor's comments today and that as well.

4

THE COURT:

5

MR DALY:

6

THE COURT:

7

Thank you, Your Honor.

All right.

Anything further?

No, Your Honor.
Thank you.

(Proceedings concluded at 1:49 p.m.)

8
9
10

CERTIFICATE

11

I, Karl Shires, Registered Professional Reporter and

12

Federal Certified Realtime Reporter,

13

is a correct transcript from the record of proceedings in the

14

above-entitled matter.

15

Dated this 25th day of April,

16
17
Karl Shires, RPR FCRR
18
19
20
21
22
23
24
25
90

certify that the foregoing

2013.

19
$
$100 [1]
17/9
$20,000 [1]
12/5
$200 [1]
17/10

-v [1]

1/6

1
10 [1]
12/5
12-80206-CR-RYSKAMP [1]
1/2
1300 [1]
1/21
14 [1]
17/16
15 [1]
12/5
18
[2]
16/816/9
1:24 [1]
1/9
1:49 [1]
18/7

2
20 percent [1]
6/24
2000 [4]
4/6 4/24 5/12
14/20
2008 [1]
14/9
2009 [4]
7/5 8/13 8/23
13/16
201 [1]
1/20
2011 [1]
7/5
2012 [2]
7/5 7/6
2013 [2]
1/8 18/15
20579 [1]
1/18
21 million [1]
15/19
25 [1]
1/8
250 [2]
5/25 6/16
258 [1]
1/24
25th [1]
18/15
285 [1]
6/14

3
30 [2]
3/20 16/11
32 [4]
10/2 10/2 10/12
10/13
33131 [1]
1/21
33401 [1]
1/25
3353 [1]
16/8
3553 [1]
16/10
37 [1]
16/11
3728 [1]
1/24
38,000 [5]
6/20 7/2
7/3 7/9 7/14

5
50

[1]

9/1

50 percent [1]

6/25
50,000 [2]
6/15 9/2
514-3728 [1]
1/24
561 [1]
1/24

6
601 [1]

1/18

7
701 [1]
1/24
7334 [1]
1/18

A
able [3]
6/10 10/7
16/17
above-entitled [1]
18/14
acceptance [1]
3/13
accepts [1]
3/5

account [6]
4/19 6/25
9/4 11/8 11/17 13/18
accountants [5]
5/7
5/8 14/20 14/21 15/1
accounts [16]
3/12
3/20 3/25 4/8 4/9 4/22
4/23 4/23 4/24 5/5
5/10 5/13 6/15 8/10
8/21 9/8
accumulated [1]
11/14
accurate [1]
12/6
addition [1]
8/10
address [2]
10/19 15/7
adjudicated [1]
7/2
Adults [1]
10/1
advanced [1]
7/10
advantage [1]
7/9
advise [1]
5/7
advisers [1]
14/23
advisory [2]
16/7
16/10
afraid [1]
10/24
afternoon [3]
2/3 2/11
10/18
AG [1]
14/8
Agent [1]
2/8
agents [1]
8/14
agreed [1]
8/13
ahead [1]
16/4
aim [2]
8/1 8/4
aims [1]
7/22
AMERICA [1]
1/4
amnesty [5]
6/8 7/4
7/25 13/13 13/18
amount [3]
4/17 4/18
6/24
analyst [1]
3/23
anxious [1]
10/22
anybody [1]
7/7
apparently [2]
12/2
13/21
appeal [4]
17/15 17/16
17/18 17/18
appearance [1]
2/5
Appearances [1]
1/15
application [1]
6/9
apply [1]
17/18
appreciate [1]
18/3
April [2]
1/8 18/15
arrest [1]
9/12
arrested [1]
7/1
articles [1]
14/9
asked [3]
5/14 10/19
10/20
assessment [1]
17/9
assist [1]
10/6
Assistant [2]
2/8 8/13
attached [1]
2/24
attempting [1]
6/10
attempts [1]
8/10
attitude [2]
10/25
11/1
Attorney [1]
8/14
attorneys [1]
14/19
aunt [1]
4/10
available [1]
5/2 0

B
back [3]
8/6 8/23 9/7
bank [3]
3/21 5/24
13/18
banker [1]
3/23

bankers [4]
5/8 5/14
8/20 14/11
Based [3]
13/4 13/8
16/12
basically [1]
13/2
Beach [3]
1/8 1/25
10/1
behalf [1]
2/12
believe [4]
3/9 3/13
7/20 9/24
beneficial [2]
5/6
11/22
benefit [3]
6/10 6/11
7/16
Birkenfeld [1]
14/12
Biscayne [1]
1/20
BLACK [10]
1/19 1/20
2/11 13/2 13/4 13/7
13/20 15/6 15/17 17/22
blames [1]
3/6
Boulevard [1]
1/20
Bradley [1]
14/11
branch [1]
17/23
bright [2]
13/16 13/25
business [3]
9/4 9/5
9/6

conferring [1]
15/8
consequences [2]
4/14
7/12
16/5
considered [1]
13/12
consistent [1]
consists [1]
16/20
5/13
contacted [1]
16/7
contains [1]
conversations [1]
16/3
cooperate [1]
8/24
cooperation [2]
8/12
8/18
copy [1]
2/14
correct [2]
13/7 18/13
corrections [1]
2/18
correctly [1]
5/7
cost [1]
17/19
costs [1]
17/18
counsel [4]
2/5 2/7
15/8 17/12
Counts
[2] 16/20 17/9
couple
[2] 3/17 11/6
course
[1] 6/16
court [11] 1/1 1/24
2/1 3/8 10/24 11/4
15/7 16/5 16/16 16/18
17/24
Court's [1]
17/12
Call [1]
2/1
courthouse [4]
10/18
called [4]
7/4 10/19
10/19 10/21 10/23
11/10 12/18
CR [1]
1/2
care [1]
15/7
create [2]
9/5 12/18
Carlo [2]
4/11 4/14
created [5]
5/21 6/12
case [16]
1/2 2/3 3/10
7/4 7/6 7/25
7/18 7/21 8/9 9/15
creating [1] 8/1
10/17 11/1 11/23 11/23 creation [1]
4/22
13/9 14/13 14/14 15/18 criminally [2]
7/1 9/2
16/11
criticize [3]
15/21
caused [1]
6/16
16/2 16/4
Center [1]
9/25
cure [1]
10/11
centers [1]
4/4
CURRAN [16]
1/7 2/4
certain [1]
13/14
2/12 3/5 4/20 7/11
certainly [1]
18/2
7/13 7/15 9/19 10/17
Certified [1]
18/12
12/5 14/18 14/18 14/20
certify [1]
18/12
16/19 16/23
chance [2]
7/14 7/15
characteristics [1]
16/12
DALY [2]
1/16 2/6
charged [3]
3/7 12/17 Dated [1] 18/15
12/20
dates [1] 8/21
charitable [1]
9/18
day [1]
18/15
children [6]
4/4 9/25 days [3]
6/7 6/18
10/2 10/3 10/6 10/11
17/16
circumstances [2]
3/10 DC [1]
1/18
3/12
death [5]
4/19 4/24
citizen [1]
4/13
11/11 11/15 14/20
claiming [1]
9/8
decided [1]
14/4
class [1]
10/9
defendant [8]
1/8 1/19
Clematis [1]
1/24
15/8 16/13 16/16 16/18
client [2]
2/15 15/6
17/8 17/11
climbing [1]
10/7
delayed [1]
13/22
closing [1]
12/18
denied [2]
6/9 8/12
Code [2]
16/8 16/9
DEPARTMENT [3]
1/17
come [1]
13/23
2/7 11/3
comments [1]
18/3
depending [1]
12/4
commissioner [1]
8/2
deposit [1]
12/16
community [1]
9/13
depositing [1]
4/22
concept [1]
7/23
deposits [2]
4/18
concepts [1]
7/18
12/19
conclude [1]
9/18
described [2]
8/19
concluded [1]
18/7
8/19
concurrently [1]
16/21 designation [1]
7/3

c

D

ni

20
D
desperate [1]
10/12
deterrence [6]
7/18
7/19 7/23 7/25 8/4 8/8
Didn't [1]
14/23
died [2]
4/6 4/11
different [5]
3/10
6/23 9/3 9/11 11/12
differently [1]
6/17
disabled [3]
4/5 9/23
10/11
disagree [2]
13/2 13/3
disclose [3]
5/14 6/11
8/10
disclosure [13]
5/12
5/19 5/21 5/22 6/1 6/4
6/6 6/7 6/12 6/21 7/5
7/8 8/15
discretion [5]
14/4
15/16 15/22 15/24
15/25
discussions [1]
15/21
dismiss [1]
15/18
dismissed [1]
13/9
disorders [2]
10/4
10/5
distributed [1]
11/14
DISTRICT [3]
1/1 1/1
1/13
DIVISION [2]
1/17 2/7
documents [1]
9/5
doing [3]
9/9 9/20
10/6
DOJ [1]
13/19
dollars [1]
14/22
donated [1] 9/21
donations [1]
10/13
Doug [1]
8/2
Down's [1]
10/4
downward [1]
13/6
draw [1]
13/25
drew [1]
13/16
driving [1]
10/22

E
echo [1]
11/3
effect [2] 6/8 6/19
effort [1] 9/22
eligible [1]
6/4
English [1]
4/13
entered [1]
8/16
entering [1]
7/13
entire [2]
4/5 9/20
entitled [1] 18/14
entrance [1] 8/12
entry [1]
17/17
errors [1]
2/17
ESQ [1]
1/20
established [1]
4/9
estate [1]
4/11
ESTELLE [2]
1/7 16/19
Europe [4]
4/16 5/14
12/2 12/7
European [1]
5/8
executive [1]
17/23
exercise [1]
15/25
extent [1]
4/7
extraordinary [1]
3/13
extravagant [1]
9/10

P
fact [4]

14/8 17/12
factors [2]
13/4 16/7
facts [1]
13/8
Factually [1]
13/7
false [1]
9/5
families [1]
10/12
far [4]
6/16 6/22 9/3
9/10
FBAR [1]
6/24
FCRR [2]
1/23 18/17
February [1]
13/16
February 2009 [1]
13/16
Federal [1]
18/12
feeding [1]
9/22
felon 12]
7/2 14/5
felony [1]
17/24
figures [1]
12/19
file [1]
17/22
filed [2]
6/7 17/16
finance [1]
3/19
finances [2]
3/24 4/7
financial [2]
3/19
3/23
find [1]
16/1
finding [2]
16/16
17/12
fine
[1] 16/17
first [6]
2/3 3/18
3/20 6/8 6/18 10/18
five
[1] 17/1
FLORIDA [4]
1/1 1/8
1/21 1/25
foregoing [1]
18/12
foreign [3]
13/18
14/11 15/2
forth [1]
16/8
foundation [5]
11/9
11/11 11/13 11/21
11/24
four
[1] 6/2
full [3]
3/5 8/15 8/18
fully [1]
12/21
Fund [1] 7/5
funds [8]
4/10 4/12
4/21 4/25 5/13 6/12
12/6 14/15
funnel [1]
9/7
further [1]
18/4
future [1]
7/7

guideline [1]
16/10
guidelines [1]
16/7
guilty [1]
3/6

investigation [4]
8/16
13/5 14/8 14/11
investment [1]
3/23
IRS £51
2/9 5/22 7/4
7/12 13/19
handed [1]
14/7
issues [1]
3/17
handle [4]
5/4 5/6 5/8 it's [4]
13/12 15/7
13/21
15/15 17/25
handled [2]
3/22 3/25
handling [2]
3/20
15/16
Jackie [1]
2/12
hard [2]
10/9 16/1
jail [1]
17/5
harsh [1]
16/15
Johnson [1]
2/9
hear [2]
3/2 12/23
join [1]
17/25
held [1]
11/14
Journal [1]
14/10
hide [2]
9/6 14/15
JUDGE [1]
1/13
highlight [1]
3/17
judged [2]
5/3 5/3
highlighted [1]
13/5
judgment [2]
16/18
history [1]
16/12
17/17
Hoffman [1]
2/12
June [3]
8/13 8/23
Honor [21]
2/6 2/11
14/9
2/21 3/4 3/15 7/17 9/1 June 2008 [1]
14/9
10/17 12/4 12/25 13/11 June 4 [1]
8/13
13/14 14/6 14/18 15/5 JUSTICE [2]
1/17 2/7
15/9 15/20 16/1 17/14
18/2 18/5
keep [1]
10/23
Honor's [1]
18/3
KENNETH [1]
1/12
HONORABLE [1]
1/12
kind [1]
8/16
hope [1]
5/2
10/9
hospitals [2]
4/3 9/23 kindergarten [1]
kitchens [2]
4/3 9/22
house [2]
4/1 9/12
know [5]
5/1 7/17 7/19
humbly [1]
11/4
10/21 14/2
8/18
hundred [1]
KORNSPAN [1]
1/19
husband [7]
3/22 4/5
4/10 4/16 4/19 4/25
11/10
Lanigan [1]
2/8
husband's [1]
11/18
large [1]
4/17
largest [1]
6/24
late [3]
4/25 10/25
I'll [1]
3/2
14/18
I'm [3]
3/15 8/17
law [4]
12/7 12/12
16/25
15/3 17/4
I've [1]
17/5
lawyer [4]
5/15 5/17
idea [1]
7/22
13/21 13/21
ignore [1]
14/25
lawyers [4]
5/7 5/8
ignores [1]
14/8
8/21 15/1
image [1]
11/25
learned [2]
4/6 4/7
immediately [1]
17/8
17/18
immunity [2]
6/21 7/8 leave [1]
left [3]
4/11 4/16
important [3]
7/17
4/20
7/20 8/7
letters [1]
2/24
imposed [2]
17/11
level [2]
13/14 13/15
17/16
give [1]
15/11
4/2 4/5 9/20
imprisonment [1]
16/14 life [3]
given [1]
7/14
light [1]
14/9
income [1]
9/6
giving [1]
11/13
7/6
7/21 limit [1]
go [6]
3/15 3/16 10/7 inconsistent [1]
line [1]
13/16
incurable [1]
10/5
10/8 11/12 13/10
lines [1]
13/25
indicted [1]
7/1
goal [1]
8/3
listed [1]
9/18
indictment [1]
12/14
going [2]
3/15 5/21
Litigation [1]
2/6
information [5]
5/18
Good [2]
2/3 2/11
15/9 15/16
8/22 12/14 12/15 14/7 little [2]
government [19]
1/16
lived [1]
4/10
inherit [1]
4/23
7/24 8/25 9/15 12/24
5/2
14/15 lives [1]
13/6 13/9 13/13 13/15 inheritance [1]
living [1]
4/14
4/10
13/16 13/17 13/25 14/2 inherited [4]
loans [1]
9/8
4/24 5/5 5/10
14/3 14/4 15/15 15/17
located [1]
10/1
intended [1]
2/25
15/22 17/25
5/6
long [5]
5/23 8/15
government's [1]
14/11 interest [1]
12/6 15/20 17/6
Internal [10]
5/19
granted [1]
10/7
12/9 14/3
5/25 6/3 6/8 6/12 7/11 lot [3]
granting [1]
7/21
7/22 7/24 8/2 8/14
14/16
grew [2]
4/17 4/21
interpretation [1]
growing [1]
4/23
15/2
guess [1]
11/20
majority [1]
6/17

H

J

K

L

I

6

M

12/20 14/7

A'")

21
M
making [1]
10/13
man [2]
3/24 14/19
managers [1]
8/21
manner [1]
17/13
MARK [2]
1/16 2/6
marriage [1]
3/21
MARY [2]
1/7 16/19
matter [4]
7/25 8/11
10/16 18/14
matters [2]
3/19 9/17
mean [2]
4/2 14/15
meet [1]
8/13
memorandum [3]
2/22
3/17 9/18
method [1]
9/8
Miami [1]
1/21
million [1]
15/19
millions [1]
14/22
mistake [2]
5/4 5/11
mistakes [5]
5/1 5/2
5/3 5/4 5/9
mitigating [1]
3/9
money [11]
4/15 4/16
4/18 4/20 4/22 6/25
9/4 9/7 9/21 11/11
12/3
Monte [2]
4/11 4/14
month [1]
5/23
monthly [1]
3/21
months [1]
16/11
Mortimer [1]
3/22
Mr [1]
14/18
Mr. [8]
13/2 13/4 13/7
13/20 14/18 15/6 15/17
17/22
Mr. Black [7]
13/2
13/4 13/7 13/20 15/6
15/17 17/22
Mr. Curran [1]
14/18
Mrs [1]
2/12
Mrs. [10]
3/5 4/20
7/11 7/13 7/15 9/19
10/17 12/5 14/20 16/23
Mrs. Curran [10]
3/5
4/20 7/11 7/13 7/15
9/19 10/17 12/5 14/20
16/23

N
name [7]
6/2 6/3 11/17
11/18 11/23 11/23
13/24
named [1]
11/9
names [2]
5/25 8/20
Nathan [1]
2/12
national [1]
15/2
necessary [1]
15/7
nervous [1]
15/10
neurological [2]
10/4
10/5
never [3]
4/18 7/15
7/15
New [1]
14/10
normal [1]
10/9
note [1]
9/25
noteworthy [1]
10/14
notice [1]
17/16
numerous [1]
14/9
NW [1]
1/18

principals [1]
11/21
prior [2]
12/22 13/23
object [1]
17/12
probably [1]
10/14
objecting [1]
9/16
probation [15]
7/21
obtain [2]
5/15 6/10
9/12 9/14 9/14 9/15
occur [1]
13/8
11/3 11/5 16/13 16/19
occurred [1]
8/22
16/22 16/25 16/25 17/1
offense [1]
16/14
17/5 17/7
offenses [1]
3/6
proceed [2]
2/20 3/1
officer [1]
9/14
proceeded [1]
16/4
Official [1]
1/24
proceedings [3]
1/11
officially [1]
17/7
18/7 18/13
offshore [6]
3/12 5/20 process [1]
12/21
6/11 6/18 6/20 7/5
production [1]
13/23
Okay [2]
2/14 16/5
Professional [1]
18/11
omissions [1]
2/17
6/5 6/8
program [7]
opportunity [2]
14/21
6/19 7/13 7/19 8/1
15/12
8/13
oppose [1]
13/6
5/19 5/21
programs [8]
order [2]
2/1 9/6
6/21 7/4 7/16 7/25 8/5
ordinary [1]
8/9
13/13
ought [1]
13/9
pronounced [1]
17/13
outset [1]
13/1
prosecuted [5]
3/11
outside [1]
4/1
3/11 7/1 9/2 14/12
overwhelming [1]
6/17 prosecution [4]
6/22
owners [1]
11/22
7/8 8/16 13/15
prosecutors [1]
10/23
provide [1]
16/13
p.m [2]
1/9 18/7
punishment [1]
16/14
paid [2] 12/16 12/21
purchases [1]
9/10
Palm [3] 1/8 1/25 10/1 Pursuant [1]
16/9
pardon [1]
17/23
put [5]
4/18 6/8 17/4
part [1]
4/11
17/5 17/5
particularly [1]
9/24
Q
parties [1]
16/6
pay [5]
7/20 15/19
qualified [2]
13/22
16/17 17/8 17/17
13/24
payment [2]
12/13
question [3]
4/9 5/9
17/19
5/24
payments [1]
12/20
questions [1]
11/6
penalized [3]
6/22
6/23 6/25
people [18]
5/25 6/14 randomness [1]
13/15
6/17 6/20 7/3 7/9 7/10 range [1]
16/11
7/14 7/20 8/3 8/6 9/22 rate [1]
6/23
10/10 10/10 10/15 12/9 read [1]
2/23
14/14 14/16
really [5]
8/4 8/5 8/8
percent [3]
6/24 6/25
9/10 15/14
8/18
Realtime [1]
18/12
Perczek [1]
2/12
reason [1]
6/14
period [4]
5/24 9/13
reasonable [2]
14/16
11/4 16/19
14/25
person [3]
8/19 9/21
reasonably [1]
12/10
14/25
receive [1]
7/8
personal [2]
3/20 9/17 received [4]
2/14 6/21
petition [1]
17/23
7/15 7/16
placed [1]
16/19
recommended [2]
5/15
Plaintiff [1]
1/5
9/15
playground [1]
10/8
record [2]
11/20 18/13
please [1]
2/5
rectify [1]
5/11
pled [1]
3/6
Registered [1]
18/11
plus [1]
9/1
regular [1]
5/22
point [3]
12/13 13/17 regularly [1]
11/13
13/24
rehabilitation [2]
4/4
position [1]
3/7
9/25
possession [1]
5/5
reintegrate [1]
8/5
practice [1]
10/22
remarks [1]
2/25
preschool [1]
10/3
removed [1]
17/25
present [1]
2/22
report [5]
2/15 6/18
presentation [1]
13/7
13/6 14/17 16/6
presentence [3]
2/15
reported [1]
6/14
13/5 16/6
Reporter [4]
1/23 1/24

0

18/11 18/12
reporting [1]
5/10
requires [1]
17/4
responsibility [2]
3/5
3/14
retained [1]
5/17
Revenue [10]
5/19 5/25
6/3 6/9 6/13 7/11 7/22
7/24 8/2 8/14
reviewed [1]
2/15
revocable [2]
11/25
12/1
revoking [1]
16/25
right [10]
2/10 2/20
3/2 11/21 11/22 12/23
14/25 15/4 17/15 18/4
Room [1]
1/18
ROY [2]
1/20 2/11
RPR [2]
1/23 18/17
rules [3]
6/2 15/23
16/3
run [1]
16/21
running [2]
9/4 13/13
RYSKAMP [2]
1/2 1/12

P

saw [1]
10/20
says [1]
13/4
scope [1]
14/13
Scott [1]
2/9
seated [1]
2/2
second [2]
7/14 7/15
seconds [1]
17/1
see [2]
3/21 10/10
seek [1]
13/18
seen [1]
10/15
SENIOR [3]
1/13 2/6
3/23
sent [1]
2/22
sentence [6]
8/8 11/4
16/13 17/11 17/13
17/15
sentenced [2]
9/12
9/13
sentencing [6]
1/11
2/22 3/1 3/8 3/16 7/18
seriously [1]
10/17
service [12]
5/19 5/25
6/3 6/9 6/13 7/11 7/22
7/24 8/2 8/14 9/13
12/18
set [2]
11/10 16/8
settle [1]
15/18
seven [2]
6/7 6/18
severely [1]
10/11
sham [1]
9/8
short [1]
2/25
shown [1]
3/13
shows [1]
8/11
Shulman [1]
8/2
sick [1]
4/5
significant [1]
4/17
similar [1]
3/12
sir [7]
2/16 2/19 11/7
12/11 15/13 16/24
17/21
situation [3]
9/2 9/10
15/14
skim [1]
9/4
skimming [1]
14/14
Soon [1]
8/12
sort [2]
10/16 10/25

R

AA

s

22

s

Thomas [1]
2/8
thought [2]
12/5 12/8
sotto [1]
15/8
three [5]
6/2 6/11
soup [2]
4/3 9/22
6/20 7/14 11/12
South [1]
1/20
thrift [1]
4/3
SOUTHERN [1]
1/1
time [12]
3/3 5/20
special [2]
2/8 17/9
5/24 6/1 7/6 8/15 9/22
spent [5]
4/2 9/19
10/20 12/8 12/24 14/20
9/21 10/12 12/7
14/21
spiteful [1]
18/1
times [3]
7/14 8/22
SREBNICK [1]
1/19
14/10
stairs [1]
10/7
Title [2]
16/8 16/9
Starting [1]
14/9
today [3]
3/8 12/22
state [1]
2/5
18/3
statement [2]
8/17
told [1]
13/17
12/18
total [1]
17/10
statements [2]
3/22
totally [2]
13/12
16/6
14/13
STATES [16]
1/1 1/4
tragic [1]
15/14
2/3 2/8 4/12 5/15 7/12 training [1]
3/19
8/4 8/6 8/24 9/5 9/6
transcript [2]
1/11
9/7 16/8 16/9 17/9
18/13
statutory [1]
16/7
traveled [1]
12/2
stay [1]
17/6
treated [2]
6/16 6/22
stores [1]
4/3
treats [1]
10/17
Street [3]
1/18 1/24
tried [2]
5/11 6/6
14/10
trip [1]
12/5
STUMPF [1]
1/19
trying [3]
10/6 10/8
subjected [1]
3/8
14/14
suffer [2]
7/3 10/3
turn [1]
15/2
sufficient [1]
5/18
turned [1]
13/21
15/17
suggest [1]
two [1]
9/17
Suite [2]
1/21 1/24
type [1]
11/11
sums [2]
10/16 10/25
sure [1]
8/18
Switzerland [3]
11/8
U.S [1]
1/13
14/22 14/23
UBS [3]
5/24 6/14 14/8
sworn [2]
8/17 8/17
unable [1]
17/17
syndrome [1]
10/4
undergoing [1]
12/21
system [2]
8/4 8/6
understand [3]
15/11
16/22 17/20
unfortunate [1]
15/15
take [1]
10/7
unfortunately [2]
5/23
taken [1]
7/9
12/11
tax [11]
1/17 2/7 4/14 UNITED [16]
1/1 1/4
5/15 5/17 7/18 7/19
2/3 2/8 4/12 5/15 7/12
8/4 8/6 8/9 15/1
8/3 8/6 8/24 9/5 9/6
taxes [3] 3/19 7/20
9/7 16/8 16/9 17/8
12/17
universities [1]
11/12
taxpayer [1]
4/13
unnecessarily [1]
taxpayers [2]
7/12 9/1 16/15
14/21 17/23
tell [2]
unsophisticated [1]
tells [1]
3/18
11/1
tens [1]
14/22
urge [1]
17/22
term [3]
16/14 16/20
use [1]
9/3
16/20
terminated [1]
17/1
terms [2] 8/7 16/21
variance [2]
13/6
Thank [5] 3/4 12/25
16/10
17/3 18/2 18/6
versed [1]
3/24
theirs [1]
9/3
versus [1]
2/4
thing [2]
11/25 13/10 violate [1]
12/7
violation [1]
6/24
things [4]
3/16 9/9
10/6 10/14
virtually [1]
3/10
think [19]
4/13 8/7
visiting [1]
9/23
8/11 8/17 9/14 10/13
voce [1]
15/8
10/16 10/25 12/9 12/9 voluntary [14]
5/12
14/6 14/6 14/16 14/16
5/18 5/21 5/22 6/1 6/4
15/9 15/20 15/22 16/3
6/6 6/7 6/11 6/18 6/21
18/1
7/5 7/7 7/19
thinking [1]
8/7
volunteer [2]
4/2 9/20
thinks [1]
17/24

u

T

w
wait [1]
12/17
waited [1]
5/23
waiting [1]
10/24
Wall [1]
14/10
want [7]
3/17 10/10
10/10 10/20 10/23 15/4
16/4
wanted [3]
5/12 10/22
14/4
warned [1]
7/12
warning [1]
7/10
warranted [1]
16/11
Washington [1]
1/18
We've [1]
2/22
wealthy [1]
14/19
weeks [1]
6/2
well [8]
2/13 3/24
10/20 12/16 13/5 14/6
15/14 18/3
went [2]
6/19 6/20
were [22]
3/11 4/9
4/12 4/14 5/9 5/20
5/21 6/12 6/22 6/23
7/2 7/14 9/8 9/11 9/13
11/22 12/6 12/20 14/9
14/14 15/22 17/1
West [2]
1/8 1/25
wish [1]
15/6
witnesses [1]
2/21
woman [3]
3/18 9/21
14/5
woman's [1]
17/24
work [5]
4/1 4/2 9/20
10/8 10/9
worked [6]
4/2 8/20
9/25 10/1 10/2 10/5
working [4]
4/4 4/4
9/20 9/23
works [1]
9/19
worried [1]
10/22
worthy [1]
9/24
wrote [1]
3/16

Y
year [5]
4/6 4/24 5/12
16/20 16/20
years [5]
3/21 10/2
10/2 10/12 10/13
York [1]
14/10

V

rv /i

APPENDIX-F: 1948 Delhi Refugee Ration-Card

:

95

T.*

A
^ 4__

r

,i)

i

i
i

\

trr

u>

£

I
“S

I.

bI

ft! /'

Q

ic-

A‘

4
g

c_

g
a

eu

o

/

96

«<**

rrr PrateR,

*

«n

sram7 $

f

L
&

ft
net
't

,*

©

IT

§•

£

U

P

(dm $

i 1

‘flC4

<t

'

ft

©

tr*h*

•ft

w

£

nc«
>tr

s

ir

<S2

f.

ft

'IT

•tr

E

E

by

■N

o
tr

174

194

155

17S

195

156

176

196

157

177

197

158

178

198

159

179

199

160

180

200

161

181

201

162

182

202

163

183

203

+

C

I

:0-8-69

154

X

rr
D?

2-4-69

13-11-68

l

ft
- hot

or

<n

)7^\

17

2F
fr

8

t

%

1

Jilr

\

/L

'O'

11-6-69

22-1-69

•<1

’

184

204

165

185

205

166

186

206

167

187

207

168

188

208

169

189

209

170

190

210

171

191

211

172

192

212

171

193

i

r

&

ft

r
i

29-10-69

164

VO

*

rr
E

•I

ii’-

t

i

ailT «dR^R srt *mra fdm |

' «*
$

•tei ifrtrTt, ircft «jfr*r*

4

1

j
'1

i

APPENDIX-G: $229,568.99-Refund Details

•:

98

Trial Calendar: Hartford, CT
Date: Monday, September 30, 2019

PRETRIAL MEMORANDUM FOR (PETITIONER)

NAME OF CASE:

DOCKET NO(S).:

Davendra Anand,
Petitioner
v.

18975-17

Commissioner of Internal Revenue,
Respondent

ATTORNEYS:
Petitioner:
Tel. No.:

Pro se Davendra Anand

Respondent:
Tel. No.:

203-895-5899

Attv. John R. Mikalchus

860-290-4049

_______

AMOUNTS IN DISPUTE (from Chart Below):
Year(s)/Period(s)
IRS

2004-2011

CT-DRS 2004-2011

Deficiencies/Liabilities
$62,263.00+41874.15
($104,137.15)
$55,340.00

FBAR-Penalty 2004-2011

Additions/Penalties
$21,291.84 Interest

REFUND
[Total=$125,428.99]

Interest ?

[Total=$ 55,340.00]

$48,800

[Total=$ 48,800.00]
[Grand Total=$229,568.99]

99

SUMMARY OF “PAID” IRS&CTDRS TAX DEFICIENCY & INTEREST fin $)

Audit

F BAR-penalty

YEAR
IRS

2003

X

As per
4.26.16.
6.4*
X

FEDERAL TAX(Settlement
Amounts with No Penalty as per Appeals
Officer)
Deficiency

Advance

Interest

Payment

Total

CT-STATE TAX(No Penalty)
Deficiency

Interest

Penalty

Total
Due

Due

Applied

X

X

2004

800

0*

0.00

2005

8000

0*

30049.00

X

X
0.00

X

X

X

X

0.00

0.00

404.00

?

X

?

(10760.00) 16872.38

0.00

18192.00

?

X

?

0.00

3609.00

?

X

?

0.00

4701.00

?

X

?

0.00

0.00

0.00

0.00

X

0.00

(30049.00)* lower?

2006

8000

0*

5084.00

(4795.00)

1477.55

(5084.00)* lower?
2007

0*

8000

6790.00

(6851.00)

1318.32

(6741.00)* lower?
2008

8000

0*

0.00

2009

8000

0*

7163.00

(6281.00)

645.86

0.00

11958.00

?

X

?

2010

8000

10000*

7921.00

(8113.39)

192.18

0.00

11447.00

?

X

?

X

5256.00

785.55

0.00

5027.00

?

X

?

2011

X

TOTAL

48800

0.00

0.00

10000*

?
X
?
62263.00 (36800.39) 21291.84 0.00
55338.00
(41874.00)* [PAID]
[PAID] [Should [PAID]
[PAID]
have
(41874.15)*
been]
[PAID]
LATER YEARS 2012 to 2017 ALREADY FILED ARE ALL CURRENT ON ADDITIONAL TAX PAYMENTS [IRS & CT-DRS
have all Payment Checks]; those years are also CURRENT regarding filing of FBAR/Fincen reports.
*IRS Reference 4.26.16.6.4 (11-06-2015) Penalty for Non-willful FBAR Violations
For multiple years with non-willful violations, examiners may determine that asserting non-willful
penalties for each year is not warranted. In those cases, examiners, with the group manager’s approval
after consultation with an Operating Division FBAR Coordinator, may assert a single penalty, not to exceed
$10,000, for one year only.
A $41874.15 Check Issued in December 2011 as Advance Payment.
AMUST USE ALL OF $41,874.15 already paid to EARLY YEARS like - 2005, 2006 & 2007 - TO REDUCE
INTEREST TO LOWEST POSSIBLE, BUT APPEALS OFFICER DID NOT DO THAT, HAVING ITS OWN
FORMULA - Higher amount application to earlier years would have reduced IRS-Interest!

100

